<html>
<title> - NOMINATION OF HON. MICHAEL JOHANNS, TO BE SECRETARY OF THE U.S. DEPARTMENT OF AGRICULTURE</title>
<body><pre>[Senate Hearing 109-012]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-012

    NOMINATION OF HON. MICHAEL JOHANNS, TO BE SECRETARY OF THE U.S.
                       DEPARTMENT OF AGRICULTURE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION


                               __________

                            JANUARY 6, 2005

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-781                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

               Lance Kotschwar, Majority General Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of Hon. Michael Johanns, to be Secretary of the U.S. 
  Department of Agriculture......................................    01

                              ----------                              

                       Thursday, Janurary 6, 2005

                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, a U.S. Senator from Georgia, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    02
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    07
Baucus, Hon. Max, a U.S. Senator from Montana....................    22
Cochran, Hon. Thad, a U.S. Senator from Mississippi..............    01
Coleman, Hon. Norm, a U.S. Senator from Minnesota................    36
Conrad, Hon. Kent, a U.S. Senator from North Dakota..............    27
Leahy, Hon. Patrick, a U.S. Senator from Vermont.................    44
Lincoln, Hon. Blanche, a U.S. Senator from Arkansas..............    30
Roberts, Hon. Pat, a U.S. Senator from Kansas....................    11
Salazar, Hon. Ken, a U.S. Senator from Colorado..................    37
Stabenow, Hon. Debbie, a U.S. Senator from Michigan..............    41
Talent, Hon. James, a U.S. Senator from Missouri.................    28
Thomas, Hon. Craig, a U.S. Senator from Wyoming..................    32
                              ----------                              

                               WITNESSES

Hagel, Hon. Chuck, a U.S. Senator from Nebraska..................    03
Johanns, Hon. Michael, of Nebraska, to be Secretary of 
  Agriculture....................................................    12
Nelson, Hon. E. Benjamin, a U.S. Senator from Nebraska...........    04
                              ----------                              

                                APPENDIX

Prepared Statements:
    Chambliss, Hon. Saxby........................................    58
    Harkin, Hon. Tom.............................................    59
    Baucus, Hon. Max.............................................    66
    Coleman, Hon. Norm...........................................    74
    Conrad, Hon. Kent............................................    67
    Crapo, Hon. Mike.............................................    83
    Hagel, Hon. Chuck............................................    61
    Johanns, Hon. Michael........................................    62
    Leahy, Hon. Patrick..........................................    81
    Lincoln, Hon. Blanche........................................    71
    Salazar, Hon. Ken............................................    76
    Stabenow, Hon. Debbie........................................    78
    Talent, Hon. James...........................................    69
    Thomas, Hon. Craig...........................................    73
Document(s) Submitted for the Record:
    Johanns, Hon. Michael (biography)............................    89
    Letters of support for Hon. Michael Johanns.................112-140
    Santorum, Hon. Rick..........................................    88
Questions and Answers Submitted for the Record:
    Chambliss, Hon. Saxby........................................   142
    Harkin, Hon. Tom.............................................   152
    Baucus, Hon. Max.............................................   176
    Cochran, Hon. Thad...........................................   167
    Coleman, Hon. Norm...........................................   202
    Conrad, Hon. Kent............................................   180
    Crapo, Hon. Mike.............................................   224
    Leahy, Hon. Patrick..........................................   216
    Lincoln, Hon. Blanche........................................   196
    Nelson, Hon. Ben.............................................   168
    Roberts, Hon. Pat............................................   171
    Santorum, Hon. Rick..........................................   229
    Salazar, Hon. Ken............................................   208
    Stabenow, Hon. Debbie........................................   214
    Talent, Hon. James...........................................   189
    Thomas, Hon. Craig...........................................   200

                              ----------                              


 
    NOMINATION OF HON. MICHAEL JOHANNS, TO BE SECRETARY OF THE U.S.
                       DEPARTMENT OF AGRICULTURE

                              ----------                              


                       THURSDAY, JANUARY 6, 2005,

                                       U.S. Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Saxby 
Chambliss, [Chairman of the Committee], presiding.
    Present or submitting a statement: Senators Chambliss, 
Cochran, Roberts, Talent, Thomas, Coleman, Crapo, Harkin, 
Leahy, Conrad, Baucus, Lincoln, Stabenow, Nelson, Dayton and 
Salazar.
    Also present or submitting a statement: Senator Hagel.

STATEMENT OF HON. THAD COCHRAN, A U.S. SENATOR FROM MISSISSIPPI

    Senator Cochran. The meeting of the Agriculture Committee 
will please come to order. We are pleased this morning to be 
able to welcome the President's choice for Secretary of 
Agriculture, Michael Johanns of the State of Nebraska. We are 
also pleased that this is the first meeting of this new 
Congress of the Senate Agriculture Committee, and we will soon 
have new leadership approved formally by the Senate. My good 
friend from Georgia, Senator Saxby Chambliss, will assume the 
chairmanship of this committee, if that is approved by the full 
Senate. We have legal steps in the process before we can 
actually claim that that is a done deed, but it certainly is 
inevitable, in my opinion, and we are fortunate to be able to 
look forward to the leadership of the Senator from Georgia as 
Chairman of this Committee.
    It has been a great pleasure serving the last 2 years as 
chairman of this distinguished committee. The members are 
talented, dedicated, and we have a record we can be proud of, 
as we look back over the last 2 years, the Healthy Forests 
Initiative stands out, the reauthorization of the nutrition 
programs. We can look back at our oversight responsibilities, 
the Commodity Futures Trading Commission, other agencies of the 
Government that this committee has jurisdiction over with a 
great deal of pride.
    I, also, am impressed with the leadership that not only the 
White House but the Department of Agriculture has provided on 
some very key issues, food safety among them, and many others. 
The well-being of America's farmers is also a very important 
area for comment. We have seen some of the best returns on 
investments in agriculture in the history of the country over 
the last 2 years. Our food exports have surged to new heights 
in many areas, and these are successes that I hope we can build 
upon as we begin this new 4-year term under the leadership of 
President Bush and with a new Secretary of Agriculture, whom I 
am confident will be confirmed by the Senate, without 
prejudging the issue. That is the subject of this hearing 
today.
    I have been privileged to meet our Secretary designate, to 
talk with him and to know of his record, and it is a pleasure 
to welcome him this morning.
    I am not going to continue to serve as Chairman, even of 
this hearing. I am going to turn over, as is our custom here in 
this committee, that honor and privilege to the new Chairman, 
the Chairman-designate, Saxby Chambliss.
    Without further ado, Mr. Chairman, I present you with the 
gavel and wish you well.
    [Applause.]

STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA, 
  CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. Well, thank you, Mr. Chairman. I have 
participated in a lot of athletic events in my life and some 
big games or what were big games for me back then, and I have 
that same feeling in my stomach this morning as I approach this 
chair. I also am very humbled by the fact that my colleagues 
have given me this opportunity, but I am more humbled by the 
fact that I have the opportunity to replace a gentleman who is 
revered in agricultural circles far and wide.
    I had the privilege of practicing law in my hometown, which 
is a very agricultural area of my State, for 26 years, and 
during that time I practiced an awful lot of agricultural law. 
During that period of time I came to know the name ``Thad 
Cochran.'' He was such a strong advocate for rural America not 
just farmers, but for everybody who lives in rural America. 
Once I got elected to the House, he is one of the first people 
that I wanted to get to know and I got to know him very well.
    He has been to my State every year that I have been out 
campaigning, and he is still revered in my part of the State, 
and it has just been a pleasure to have the opportunity to be 
associated with him both within the agriculture circles, as 
well as outside the agricultural circles. He has provided 
strong leadership for this committee, and he is going to 
continue to be a strong voice for agriculture in his position 
as Chairman of the Senate Appropriations Committee.
    Thad, to you, I say thank you on behalf of all farmers all 
across America for the great service you provided to 
agriculture.
    Senator Cochran. Thank you.
    [Applause.]
    The Chairman. I would say, also, that I have had the 
pleasure of knowing Tom Harkin for a number of years. Tom and I 
got to know each other during our farm bill debates and some 
visits that I have made to Iowa. Tom Harkin, also, has been a 
strong advocate for rural America and for farmers, not just in 
Iowa, but all across America. I really look forward to working 
more closely with Tom than ever before. Tom, we have had a good 
relationship, and we are going to have an even stronger 
relationship for the benefit of all farmers.
    We are going to start off this morning, as the first order 
of business of this committee, to consider the confirmation of 
the President's nominee for Secretary of Agriculture. We have 
here for the hearing this morning Governor Mike Johanns, of the 
great State of Nebraska. He is accompanied by two of our good 
friends here--one which is a member of our committee, and both 
are two personal friends of mine, Senator Chuck Hagel and 
Senator Ben Nelson.
    I will turn to Senator Hagel, first, for comments that he 
would like to make.
    [The prepared statement of Chairman Chambliss can be found 
in the appendix on page 58.]

  STATEMENT OF HON. CHUCK HAGEL, A U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you. First, 
congratulations on your new responsibilities and your new 
assignment. You have some very weak members on your side, I 
note, but assuming that you are able to overcome that deficit, 
I know that you will do quite well, and I look forward to 
exchanging agriculture tips during our Intelligence Committee 
meeting. Congratulations, and we are very pleased that you have 
agreed to accept this big responsibility.
    Senator Baucus. I appreciate your inference that only one 
side is weak.
    [Laughter.]
    Senator Hagel. Senator Baucus, with all due respect, I am 
not finished.
    [Laughter.]
    Senator Baucus. I will have subsequent remarks as well.
    [Laughter.]
    Senator Hagel. I will be gone.
    To Chairman Cochran, thank you for your leadership over 
these years. You have, as Chairman Chambliss has noted, been a 
very important part of American agriculture, and your 
leadership, as the Chairman noted, has not only been highly 
regarded and respected, but appreciated. All of us from farm 
States, who are much dependent on agriculture, very much 
appreciate what you have done, as well as the former Chairman 
of the House Agriculture Committee, who sits to your left, now-
Senator Roberts, for his years of service.
    Mr. Chairman, I have a prepared statement, which I would 
ask that it be inserted into the record.
    The Chairman. Without objection.
    Senator Hagel. Thank you.
    I am here this morning with my friend and colleague, 
Senator Nelson, who you have already introduced, to perform not 
only an important task, but a very personal task for me, and 
that is to help acquaint this committee with our Governor and a 
very dear friend of mine, Mike Johanns. The President has 
chosen wisely, in my opinion, in selecting Governor Johanns for 
this job. Members of this committee recognize more, and better, 
and deeper than most what is ahead for American agriculture 
these next 4 years. The Farm bill is going to have to be 
rewritten, trade issues, exports, conservation programs, we 
probably are looking at more drought issues, natural disaster 
issues, so much that is included in the portfolio of the 
Secretary of Agriculture.
    As the President has chosen Mike Johanns, Mike Johanns has 
agreed to step into this job at an important time that will 
require, I believe, more than just qualifications. It will 
require a personal commitment to what these tasks and 
challenges are. I do not know of an individual who today, in 
America, and that is a rather inclusive, and broad and bold 
statement, is better qualified to do this job than Mike Johanns 
not just because of his background, his education, what he has 
done in his life, but his personal commitment. This is a man 
who was born on a farm. Agriculture has been part of the very 
fiber of his existence throughout his life.
    As Governor of Nebraska, he led and headed many of the 
Governors' Association, Midwest Governors' Association, 
Republican Governors' Association, export efforts, trade 
efforts, always moving forward, always branching American, 
Nebraska agriculture out into new value-added dynamics. It is 
the opinion of this Senator that that is the future of American 
agriculture not more subsidies. In fact, if we are to continue 
to build on the great strength and productivity of American 
agriculture, then it is going to require, I believe, some 
rather creative leadership and thinking and bold leadership as 
well. No one is better equipped than Mike Johanns to be able to 
accomplish that.
    I would conclude, Mr. Chairman, with this point. Most, I 
suspect, know that Mike Johanns, if approved by this committee 
and confirmed by the U.S. Senate, would be the fourth Nebraskan 
to hold this assignment as Secretary of Agriculture. We have 
been, over the years, very proud of Clayton Yeutter, the most 
recent Nebraskan to hold this job, Clifford Hardin, and a man 
that is now part of our history and our legacy and also 
presides in the Hall of Statues, J. Sterling Morton, who was 
the first Secretary of Agriculture from Nebraska. I do not know 
if we will build a statue to Johanns, depending on how well he 
does, but he has a great legacy to follow in the three 
Nebraskans, who have previously held this job.
    With that, Mr. Chairman, I would conclude by saying that we 
are very proud of this man. Certainly, Tom Harkin can claim a 
part of him. One might say that Johanns was shaped and molded 
maybe even more in Iowa than he was Nebraska, but, nonetheless, 
this is a man of the heartland. This is a man who is ready to 
do this job, and we are proud of him. We will enthusiastically 
support him and work closely with him.
    Mr. Chairman, thank you.
    [The prepared statement of Senator Hagel can be found in 
the appendix on page 61.]
    The Chairman. Senator Nelson.

   STATEMENT OF HON. E. BENJAMIN NELSON, A U.S. SENATOR FROM 
                            NEBRASKA

    Senator Nelson. Thank you, Mr. Chairman.
    First, I want to congratulate you on your new chairmanship 
and to say to Senator Harkin, as the ranking member of the 
Personnel Subcommittee of Armed Services, I worked with Senator 
Chambliss, who was the Chairman. I will miss him in that role, 
but will look forward to working here with him, but you will 
find him to be a very good partner in the efforts of this 
committee. Congratulations, Mr. Chairman.
    I want to thank my colleague and good friend, Senator 
Hagel, for joining me here and certainly would second all of 
his comments about Governor Mike Johanns.
    I would also like to thank the committee and Chairman 
Cochran for recognizing the importance of moving this committee 
nomination process forward quickly, recognizing the importance 
of having a Secretary of Agriculture as soon as possible, and I 
thank you for this hearing.
    The United States is blessed with an abundance of natural 
resources and cutting-edge technology that leads the world in 
agriculture. We all agree that the richest resource of American 
agriculture is its people, the farm and ranch families whose 
efforts drive the productivity of our agriculture industry for 
food, fiber, and fuel. American agriculture encompasses 
agribusiness firms responsible for processing, delivering and 
selling food and other products to consumers, domestic and 
abroad. It involves institutions of higher learning, people who 
provide credit, sell farm implements, manufacture new products 
and provide nutrition information. It also includes scientists 
who contribute to greater yields with less environmental 
impact. These people, and so many others, support an economic 
system that is without doubt the envy of the world.
    It is critical to understand the diversity of American 
agriculture and how its influence will be important to our 
daily lives, whether we work or whether we do not work in 
agriculture, whether we live or do not live on a farm, and that 
is why I support the nomination of Nebraska Governor Mike 
Johanns to lead this agency that is responsible for the safety 
of meat, poultry and egg products, for opening new markets and 
reopening those currently closed to U.S. agriculture products, 
for providing food aid to those who have the need, for 
protecting the soil, water and wildlife and for administering 
food nutrition programs.
    Today, I emphasize Governor Johanns' qualifications to lead 
the Department at a very important time for U.S. agriculture. 
Nebraska is a world-class leader in producing a high-quality, 
abundant and affordable food supply. I would not be doing my 
job if I did not say that today.
    Nebraska leads the State in total red meat production, it 
is the Nation's leading livestock-slaughtering State and ranks 
No. 1 in great northern and light red kidney bean production. 
Our diversity is further illustrated by top five rankings in 
alfalfa, hay production, cash receipts from corn, grain, 
sorghum and livestock, through its land, and farms, and 
ranches, and soybean, winter wheat and pork production. Nearly 
8 million acres of Nebraska's field crops benefit from 
irrigation through approximately 24,000 miles of streams and 
rivers, reservoirs and aquifers. In recent years, the 
importance of maintaining water quality and quantity in times 
of severe drought conditions has added to the complexity of 
agriculture production. Mike Johanns has governed in these 
times of great uncertainty and is well aware of the continuing 
needs to deal with these most difficult times.
    Governor Johanns presents to the committee a list of 
qualifications that will be of considerable benefit not only to 
Nebraska and the Midwest, but throughout the Nation, which is 
important to the other States or members of this committee and 
the other Members of Congress, who are not members of this 
committee, but are members of the American society. He is an 
experienced leader and a strong advocate, with solid common-
sense solutions to the difficult questions that are presented 
to him. We have talked about the need for a bipartisan approach 
in this important job, and I know he agrees how important that 
will be.
    I look forward to continuing to work with Governor Johanns, 
as Secretary of Agriculture, to improve drought monitoring and 
forecasting, to advance renewable fuels initiatives, increasing 
the use of ethanol and biodiesel in our transportation fuels, 
just to name a few. In addition, the opportunity to create new 
and innovative rural development programs and reverse the trend 
of out migration from the smallest communities has never been 
more important. Today's nominee not only has the leadership 
experience, but he also has the experience of having worked to 
develop such programs.
    Finally, with farm bill reauthorizing effort already 
mentioned, I look to the Governor as the new Secretary and his 
skills in generating bipartisan coalitions to enact 
comprehensive legislation which furthers the goals of consumer 
safety and confidence in our nation's food supply without 
compromising the ability of our producers to compete freely and 
fairly in the global marketplace.
    I was pleased to learn of the administration's selection of 
Mike Johanns as Secretary of Agriculture. I have said 
repeatedly, and believe thoroughly, the person who will 
administer the Farm bill and bill for the future of agriculture 
in America should be somebody with Midwestern agricultural 
experience. Governor Johanns has that kind of experience and 
that perspective and, in my opinion, will serve the 
administration and the country very well.
    Thank you, Mr. Chairman. It is a pleasure to be here. Thank 
you for this time.
    The Chairman. Thank you very much, Senator Hagel and 
Senator Nelson.
    Governor Johanns, I will tell you, you could not have two 
more respected members to bring with you to introduce you this 
morning. We thank both of you all for being here. We know your 
schedules are busy. If you have to leave at this time, we 
understand.
    I want to take a minute, before we get started, to 
recognize some new members to the committee. A couple of them 
are not new to the Senate. Senator Craig Thomas, from Wyoming, 
is joining the Senate Agriculture Committee. Craig, we are 
certainly glad to have you with us. Senator Rick Santorum, of 
Pennsylvania, also, will be joining the committee this year on 
our side.
    On the Democratic side, Senator Ken Salazar, from the State 
of Colorado, who is a new member to the Senate, a member that 
we truly look forward to working with on this committee. Ken 
and I have already had an informal conversation about 
agriculture. Ken, we are very pleased that you are joining us 
and look forward to working with you.
    I want to make sure that all of the new members know, too, 
that a great tradition around the Senate, as well as during my 
days in the House, I was sure that every member of the 
Agriculture Committee had plenty of good Georgia peanuts. I 
will not argue with my friends from Texas or Oklahoma or North 
Carolina or Virginia or other peanut-growing areas about which 
state has the best. All I will say is that ours are always gone 
first.
    [Laughter.]
    The Chairman. They give you plenty of energy, too. There 
will be plenty of those available during the course of all of 
our hearings.
    Governor Johanns, we want to welcome you here and thank you 
for your willingness to continue to provide public service to 
the people of America. I congratulate you on being the 
President's choice to lead the Department of Agriculture for 
the next 4 years, and I appreciate your continuing commitment 
to public service. In my opinion, you are extraordinarily well-
prepared for this new challenge. You grew up on a dairy farm in 
Iowa. You have served two terms as mayor of Lincoln, Nebraska. 
You are now in your second term as Governor of that State. You 
have certainly shown outstanding leadership during your tenure 
as Governor of Nebraska and it will serve you well in managing 
the diverse and important activities of the Department of 
Agriculture.
    As leader of a major agricultural State, the Governor is 
obviously familiar with the issues that are important to 
farmers and ranchers. He has been a leader in the Western 
Governors' Association on drought issues and has led five trade 
missions to expand overseas markets for American agricultural 
products. He has also been a leader on many of the other issues 
that are critical to the very diverse mission of the U.S. 
Department of Agriculture. He has been a strong voice for rural 
economic development. He is a past chairman of the Governors' 
Ethanol Coalition and knows the potential of value-added 
agriculture. He serves as chairman of the Governors' 
Biotechnology Partnership and has fostered electronic, 
government and technology applications in his State.
    Governor, I know my colleagues are looking forward to 
hearing your thoughts on their specific issues, but before we 
begin with your statement and questions, I would like to ask my 
good friend, the distinguished ranking Democratic member of the 
committee, if he has any opening remarks.
    Senator Harkin.

     STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA

    Senator Harkin. Mr. Chairman, thank you very much, and I 
would have some opening remarks, but before I do that, I just 
wanted to publicly thank Senator Thad Cochran for his great 
leadership of this committee over the last couple of years and 
to thank you, Thad, for always being so open in working with 
the minority side over here. I can honestly say that at no 
time, during your tenure as chairman and my tenure as ranking 
member, at no time was anything ever done that we did not 
discuss that you did not always tell me that we were going to 
do. We always had an open policy, and I just want you to know 
how much we appreciate that on this side. I also want to thank 
you for your great leadership in getting the nutrition 
reauthorization bill through.
    To those who say that all we do is bicker and fight around 
here in a partisan manner, I would point to this committee, in 
which that is rarely the case, if ever. The example of that is 
the nutrition reauthorization bill, which was gotten through 
under the chairmanship of Senator Cochran, which was the 
legislation that ensures that the people of America have a food 
supply in which they can rest assured is good, that our kids 
have adequate nutrition in early childhood. Our school lunch, 
our school breakfast programs, our after-school feeding 
programs, our elderly feeding programs all come under that 
nutrition bill. To the extent that we have the lowest rate of 
hunger anywhere in the world, there are pockets here and there, 
but still we do a great job in this country of making sure that 
our kids are well fed in this country. That nutrition bill 
really was a great bill that we got through, and I want to 
thank Thad Cochran for your great leadership on getting that 
through in a very bipartisan manner, getting it through the 
House and getting it to President Bush for his signature.
    As you leave the chairmanship of this committee, I know you 
are taking over the chairmanship of the Appropriations 
Committee--I also serve on that committee, too, so I look 
forward to working with you on that--and since you will be 
holding all the purse strings, if there are any other accolades 
I can give you or any other nice things I can say about you, 
please have your staff get them to me, and I will say them 
right away.
    [Laughter.]
    Senator Harkin. I really do thank you, Thad. It has been 
great working with you.
    I also want to publicly thank Secretary Veneman for her 
tenure as Secretary of Agriculture. Again, I would say the same 
thing about her I just said about Senator Cochran. During her 4 
years, we had an open policy. We met periodically. Not once did 
she not return my phone calls, always and, likewise, I would 
return hers. We always had a very open and frank discussion of 
the problems that confronted agriculture or what was coming 
before our committee. I trust, with Governor Johanns, that we 
will continue to have that same kind of open policy with you as 
Secretary. I want to publicly thank Secretary Veneman for her 
great leadership in the Department of Agriculture, for helping 
us get through the 2002 Farm bill and getting that signed by 
President Bush, a remarkable piece of legislation, which you 
were very instrumental in helping get through, too, also, 
Chairman Chambliss.
    To Chairman Chambliss, again, congratulations on taking 
over this great committee. I did a little historical look here, 
and it seems to me that you are the second Georgian to chair 
this committee, of course, the first being Herman Talmadge, 
from 1971 to 1980.
    There was another great Georgian, however, speaking of 
nutrition, who was not a member of this committee, but through 
his leadership was instrumental in establishing the whole 
school lunch program in our schools, and that was Richard 
Russell, from Georgia, who is the father of the national school 
lunch program.
    However, there are little tidbits of history. There was one 
Senator from Mississippi, Thad, by the name of James George, 
who served as chairman of this committee, but he was born in 
Georgia. See, it is a little like Governor Johanns. He was born 
in Iowa, see, but he is from Nebraska, but we claim him, and I 
am sure that we might then say that you are the third Georgian 
now who chairs this committee.
    Chairman Chambliss, you and I have worked together in the 
past, as you indicated, especially on the 2002 Farm bill. We 
both have served on the Agriculture Committee. This makes my 
thirtieth year, unbroken year, on Agriculture--20 in the Senate 
and 10 before that in the House. I look forward to working with 
you.
    What can I say about the peanuts? I can say that, well, for 
a long time we had North Carolina peanuts, when Jesse Helms was 
chairman. I am sure the Georgia peanuts will hold up well to 
the North Carolina peanuts. Are there any North Carolinians on 
this committee now? Georgia peanuts will be a lot better than 
the North Carolina peanuts.
    [Laughter.]
    Senator Harkin. We welcome the new members of the committee 
on both sides. I thank you all for all of the work that members 
on both sides did on the 2002 Farm bill when I was privileged 
to chair this committee at that point in time.
    Again, to you Governor Johanns, I look forward to working 
with you and congratulate you on your nomination as Secretary 
of Agriculture. Good leadership at the Department of 
Agriculture means a great deal in my State of Iowa. It is 
critical to our economy. We treasure our way of life in Iowa in 
our small towns and communities. I happen to live in a town of 
150 people, Cumming, Iowa. I may be one of the few people who 
actually lives in the house in which he was born. I was born in 
a house not a hospital, and I still live in that house in a 
town of 150 people. We value greatly our traditions and our way 
of life. We depend on making sure that agriculture is healthy.
    The day-to-day responsibilities that you will assume as 
Secretary of Agriculture touch the lives of everyone in my 
hometown of Cumming. They touch the lives of every farmer and 
every farm family in Iowa, Nebraska and all over this country, 
but they also touch the lives of people all around the world. 
This, I believe, is one of the most significant positions in 
our Government, and it is one of the most unheralded. I believe 
Secretary of Agriculture is one of the most vital positions in 
our Government.
    Of course, Governor Johanns got a good start in life, as 
has been noted, by being born and raised on a dairy farm in 
Iowa. I guess you might say that he has a good grip on things 
in agriculture.
    [Laughter.]
    Senator Harkin. As the Governor of our neighboring State of 
Nebraska, he has added to his knowledge of food, and 
agriculture and rural issues.
    Again, I look forward to working with you, Governor, in 
your new capacity.
    One of your major responsibilities is carrying out the Farm 
bill. I believe we passed a good bipartisan bill in 2002. 
President Bush praised it, especially the conservation sections 
of it, signed it into law and, for the most part it has been 
working. We stayed within the budget in writing that 
legislation, but since then the budgets and appropriations 
bills have taken some of that funding away. In fiscal 2005 
alone, over $1.2 billion was cut from programs, such as 
conservation, rural economic development, research and 
renewable energy.
    On top of that, the administration insisted that disaster 
assistance could only be obtained by drawing funds out of the 
Farm bill. This bleeding of funds from the Farm bill is 
damaging and shortsighted. I also think that key farm bill 
initiatives are suffering from delayed or misguided 
implementation. It seems as if the regulations for the 
Conservation Security Program were intentionally written to 
drive farmers and ranchers away, through stingy payments and 
overly burdensome regulations.
    The new initiative to bring investment capital to rural 
communities has been largely nullified by unworkable rules. 
Funds that were dedicated in the Farm bill to rural broadband 
access lie idle. Money that we put there lie idle because of 
excessively tightfisted lending policies. These implementation 
problems can, and should be, solved shortly. It is encouraging 
to me that you, Governor, understand the importance of 
developing markets for value-added products, from pork and beef 
to farm-based renewable energy and bio-based products. Adding 
values to commodities holds real promise for boosting farm 
income, and jobs and economic growth in rural America.
    As we spoke about, we wrote a provision in the Farm bill 
requiring that all Federal departments and agencies must give a 
preference to bio-based products wherever feasible. That means 
the Department of Energy, the Department of Defense, the 
Department of Homeland Security, all of them, must give a 
preference to bio-based products. That could create a huge 
potential market. Unfortunately, the USDA's rules to establish 
this requirement are now 2 years overdue. We cannot delay this 
any further.
    We also face unprecedented challenges in protecting the 
safety and security of our Nation's food supply, including from 
intentional acts that we did not even contemplate when we wrote 
the Farm bill. Besides the meat and poultry inspection, we have 
a crucial role in fighting plant and animal diseases, such as 
soybean rust, which is now threatening our country, foot and 
mouth disease, protecting humans from things like BSE or mad 
cow disease, avian influenza.
    To do this job, the USDA needs state-of-the-art facilities, 
which is why we must provide the necessary funds to complete 
the renovation of the National Animal Disease Laboratory in 
Ames.
    Last, we have a history of bipartisan cooperation, as I 
said, in this committee in support of domestic and 
international food and nutrition assistance. It is helpful that 
this committee understands the farm-food connection and help 
those who need help with food. Again, I mentioned earlier, 
where Senator Lugar, and Senator Cochran and those of us worked 
to strengthen the Federal Food Assistance and Child Nutrition 
Programs. Again, I hope, Governor, that you will continue the 
strong support for national eligibility standards, national 
eligibility standards and benefit levels that are national in 
these programs.
    In trade, we have, for years, taken for granted that our 
Nation's ag trade would be a surplus. For 2005, USDA projects 
that, for the first time since 1959, our agriculture trade 
surplus will disappear. Clearly, we have a lot of work to do to 
reopen our beef markets in other countries, and we look forward 
to working with you on that.
    Again, I welcome you, Governor, to the committee. I 
congratulate you on this appointment. I look forward to the 
hearing today, but also to basically working with you in the 
coming months and years. Just in case I do not get back--I have 
to leave to go to another hearing for Ms. Spellings on 
Education--but just as an addendum to what I was saying, 
Governor, I mentioned to you the other day, we have one of the 
worst calamities that ever hit our planet in the Tsunami that 
hit Southeast Asia, Southern Asia. Our country, our President, 
is rushing forward with funds to help in any way we can. One of 
the things that we have in abundance in this country is we have 
food. We have great food. We have food that can help feed 
people all over that region that need it and are going to need 
it not just now, but they are going to need it in the weeks and 
the months ahead as they get back on their feet.
    I am hopeful in the supplemental appropriations bill that 
the President will send up that will be mostly military--I 
understand that--I hope and trust that there will be a large 
component in there for Public 480, Title II aid, which is the 
grants in food. We have the food. We know how to deliver it. 
They need it. It ought to be a big part of our supplemental 
appropriations bill when it comes up, and I hope, Governor, 
that you can take the lead, as Secretary, in promoting that 
within the Councils of Government.
    Governor Johanns. Thank you, Senator.
    Senator Harkin. Thank you. Thank you very much, Mr. 
Chairman, for indulging me with this time.
    [The prepared statement of Senator Harkin can be found in 
the appendix on page 59.]
    The Chairman. Thank you very much, Senator.
    I know Senator Roberts has a couple of comments that he 
wants to make, but before I turn the microphone over to him, 
when I was elected to the House 10 years ago, the chairman of 
the House Agriculture Committee was Pat Roberts. It was a great 
pleasure to have the opportunity to work with him. He is now my 
chairman on the Senate Intelligence Committee. We used to be 
able to talk about what we did in the Agriculture Committee, 
and now we just have to walk by each other and smile since we 
cannot talk about what goes on in the Intelligence Committee. 
After Pat left the House to come to this body, he was succeeded 
by another gentleman, whom I happen to note is in the audience 
today, and another great friend of agriculture and one of the 
major architects of the 2002 Farm bill, former Congressman 
Larry Combest. Larry, we are very pleased to have you with us 
today.
    At this time, I will recognize Senator Roberts.

   STATEMENT OF HON. PAT ROBERTS, A U.S. SENATOR FROM KANSAS

    Senator Roberts. Mr. Chairman, I understand that it is not 
regular order for those of us in the ranks to make opening 
statements and that we are to stand at parade rest, which I am 
now doing.
    I just want to take this opportunity to thank Thad Cochran 
for his outstanding leadership. I do associate myself with the 
remarks of the distinguished new Chairman, and our ranking 
member and former chairman in regards to Thad's leadership. 
Many are called, but few are chosen. Thad was not only the 
chairman of this committee and handled it in his usual true 
Southern gentleman style, but also was our banker, being the 
previous chairman of the Subcommittee on Agriculture 
Appropriations. It is a very rare combination. Whatever we have 
been able to do on behalf of agriculture not only Mississippi, 
Kansas, Iowa or Georgia or nationwide, it has been due, at 
least in some large part, due to the efforts of Thad Cochran.
    I really do not know how I am going to explain to Ted 
Stevens why I am no longer going to carry his bags, wash his 
windows, press his ties or shine his shoes. Your shoes will be 
ready tomorrow morning, sir----
    [Laughter.][continuing.]
    It was 7:30 for Stevens. I do not know what time you want, 
but that is what we will do.
    To Senator Chambliss I want to say my deepest and best 
wishes. I could not be more proud of you being our new 
Chairman. The only thing I would point out is that Kansas is 
the fastest-growing cotton State in America and that the 
complaint on Georgia peanuts to the Ethics Committee, of which 
I am a member, by several other States, we have taken care of 
that. You do not have to worry about that.
    Mr. Chairman, if you count Saxby Chambliss, there are now 
six chairmen or former chairmen of the House or the Senate Ag 
Committees serving on this panel--Senator Chambliss, Senator 
Cochran, Senator Lugar, Senator Harkin, Senator Leahy and some 
fellow named Roberts. That is remarkable, and it shows exactly 
what Senator Harkin was pointing out--the bipartisan nature of 
this committee and that, in fact, we are all privileged to 
serve Agriculture. I have a glowing statement for Governor 
Johanns, but I will save that for the questioning.
    I thank you, sir, for recognizing me, and I thank my 
colleagues for their indulgence in regards to my remarks.
    The Chairman. Thank you, sir.
    Any other member who wishes to enter a statement in the 
record, we will be happy to insert it.
    At this time, Governor Johanns, we will turn to you for any 
opening statement you wish to make.

  STATEMENT OF HON. MICHAEL OWEN JOHANNS, OF NEBRASKA, TO BE 
                    SECRETARY OF AGRICULTURE

    Governor Johanns. Thank you very much.
    Mr. Chairman and distinguished members of the Committee, I 
am both honored and humbled by the President's nomination and 
the confidence that he expressed in my ability to serve as 
Secretary of Agriculture. The U.S. Constitution vests in the 
Senate a critical role in this process, so I am here today to 
answer your questions, in hopes that I might also earn your 
confidence and to assist you in fulfilling your constitutional 
role.
    I would like to mention that I am joined today and would 
like to acknowledge my partner, and I might add my biggest 
supporter, my wife Stephanie.
    I will share with you, in a simple and straightforward 
manner, who I am and why I am so eager to champion the cause of 
agriculture. I will be brief, and I will ask that my full 
statement be submitted.
    I did grow up in Mitchell County, Iowa, the son of dairy 
farmers--John and Adeline Johanns. I woke with the sun to do 
chores, and we would often finish after dark. At a very young 
age, I learned discipline, and I learned commitment to purpose. 
I developed a deep respect for the land and a work ethic that 
helps to define who I am as a person. I will always be a 
farmer's son with an intense passion for agriculture.
    You will not have a difficult time finding evidence of that 
passion throughout my time in public service. I currently serve 
as Governor of a State in which agriculture is a very key 
economic driver. Nebraska is the largest beef processing State 
in the United States and the fourth largest exporter of 
agricultural products in the United States. I have had every 
reason to remain very closely connected to my roots and the 
lessons that I learned so long ago.
    For example, every farm kid quickly learns the importance 
of productivity. Having worked long hours on the farm, I 
imagined, at that time, that we were turning out as many 
bushels of corn per acre as was humanly possible. Today, 
productivity has increased so dramatically that producers 
harvest crops that we only could have dreamed of back then.
    Technology has revolutionized farming and biotechnology 
could open the door to a more productive future. As chairman of 
the Governors Biotechnology Partnership, I have actively 
encouraged the exploration of biotech opportunities.
    In Nebraska, we have invested a great deal in agriculture. 
We enacted a Value-Added Agriculture Initiative, provided 
production credits for ethanol, and I have led eight 
delegations of Nebraska agriculture leaders on trade missions 
all over the world.
    Growing up, I also learned a very simple lesson about 
Mother Nature. It does not matter how high the export demand is 
if there is not enough rain to get your crops out of the field. 
In the mid 1960's, it did not rain in Mitchell County, and my 
family lost an entire crop. This experience, combined with the 
knowledge I have gained from serving as Governor during a very 
severe period of drought, has driven my aggressive work to 
better prepare for and respond to drought.
    As co-lead Governor on drought for the Western Governors' 
Association, I advocated for an integrated drought monitoring 
system. By establishing an early warning system, we could 
better forecast drought cycles, thereby allowing for better 
preparation. I have highlighted policies that I have supported 
in hopes that they provide some insight into my vision.
    I have said little about the principles upon which I base 
my decisions. You have a right to that information, also. As 
old-fashioned as it might sound, I do believe strongly that 
public service is a higher calling. It is appropriate for you 
to consider both my policies and my principles before deciding 
whether I am worthy to serve as a member of the President's 
Cabinet.
    What I offer you is not profound. It is as basic as my 
upbringing.
    I believe strongly that citizens should have access to 
governmental leaders. I maintain an open-door policy as 
Governor, just as I did as mayor and county commissioner. You 
might find Nebraskans who have disagreed with my decisions, but 
they have always been given the opportunity to discuss an issue 
with me, whether we do or do not see eye-to-eye.
    I believe Government, be it local, State or Federal, must 
fiercely guard against the notion that all the good ideas are 
conceived inside Government offices. That is why I visited all 
93 counties in Nebraska, many times, actually, to have direct, 
face-to-face contact with constituents I serve. Now, I 
appreciate that our Nation is much larger than our State, and 
yet the same reality holds true regarding the exceptional 
wisdom often imparted by the citizens that we serve.
    I believe personal integrity is critical. The answers I 
provide might not please everyone, but they will be honest, and 
they will be straightforward. I have worked with contentious 
issues, and I have stood up for what I believe in.
    I believe that when a spirit of cooperation prevails, hope 
can be found in seemingly the most hopeless situations. If 
confirmed, I am eager to work with this committee and the full 
Congress to establish a similar atmosphere in which we can 
tackle the challenges and seize the opportunities before us to 
achieve new agriculture milestones as a Nation.
    I believe that those in leadership positions must not only 
manage the issues of the day, but also look to the future and 
do so with courage.
    Our country has been very blessed with many courageous 
leaders, and I believe that the future holds great promise for 
a strong, vibrant rural America. I am in awe of the farmers and 
ranchers in Nebraska whose resilience has been nothing short of 
remarkable as they face their fifth year of drought. You would 
be hard-pressed to put a challenge before them that they were 
unwilling to accept. It is important for those whose 
responsibility it is to support our farmers and ranchers to 
demonstrate the same resiliency and determination.
    I will promise you this: If you decide that I am fit to 
serve our country in this capacity, I will do so with passion, 
with determination, and with a continued commitment to the very 
values I learned on that dairy farm near Osage, Iowa.
    As Governor of a State that has been benefited tremendously 
from the good work of the USDA, I would be honored to stand 
side-by-side with the dedicated employees of this Department to 
work as a team in advocating for rural America. I would welcome 
the challenges associated with managing a diverse and a very 
complex organization. I have had to make many difficult 
decisions as Governor, and I have tried to clearly articulate 
my reasons for those decisions. I understand the significance 
of being accountable to the President, to you, to the employees 
of the Department, and most importantly to the citizens of our 
great country.
    I have spoken with most of you by phone, and many of you in 
person, since my nomination was announced by President Bush. 
Your interest in USDA programs has given me an appreciation for 
the significant and important work performed by this 
Department. I am eager to follow up and to learn more about the 
topics you have raised in our meetings, such as managing our 
national forest lands and food assistance programs, protecting 
plant and animal health, ensuring the safety of our food, and 
making certain that the USDA serves all customers and treats 
all employees with equality, dignity and respect.
    When I accepted the nomination of our President, he said 
something that has stayed with me in the subsequent weeks. He 
described me as a faithful friend to farmers and ranchers. I 
can only hope that the farmers and ranchers of Nebraska share 
the President's view. I can only hope that if confirmed by the 
Senate, the farmers, ranchers and consumers of America will 
feel that I have been a faithful friend and a strong advocate 
at the completion of my time as Secretary. I will never 
hesitate to speak passionately on their behalf.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Governor.
    Before we hear your testimony, I will ask that you please 
stand and let me administer the oath to you. Would you raise 
your right hand.
    [Nominee sworn.]
    The Chairman. Before we move on to the questions, I will 
have to say I am very pleased that you would bring your biggest 
asset, your wife, which our wives are certainly the biggest 
asset to each of us individually here, and that is Stephanie, 
with you this morning. I heard, in the hallway outside, she and 
I are big NASCAR fans. When I mentioned Little E, and Ryan 
Newman, and Tony Stewart, she knew exactly who I was talking 
about, which is unusual for a lot of females.
    We have one mandatory question that I must ask you, 
Governor, and that is do you agree that you will appear before 
any duly constituted committee of Congress if asked to appear?
    Governor Johanns. I do.
    The Chairman. Thank you.
    Governor, the U.S. net farm income is expected to reach an 
all-time high this year. Farmers know, however, that 
agriculture can be a cyclical business and always is cyclical. 
What would you do, as Secretary of Agriculture, to make 
agriculture a more profitable business for our farmers and 
ranchers over the next several years, as well as for the longer 
term?
    Governor Johanns. Again, you can look at my history as 
Governor, and it gives you a very positive road map of what I 
have been doing as Governor and what I hope to continue. In our 
state, we put a tremendous amount of emphasis on value-added 
agriculture. There are a number of opportunities there, but I 
will give you one example. We decided to make a significant 
investment as a State--in fact, it is something like $200 
million over the next 10 years--into ethanol, and now we are at 
half-a-billion bushels of ethanol or more. We have 11 plants 
operating thereabouts, and we expect another half a dozen will 
come on-line soon.
    This whole concept of value-added agriculture is an 
opportunity for not only our State, but the country, to expand 
the reach of agriculture around the world. The food programs 
that Senator Harkin spoke so eloquently about, they also have 
an impact, and there is no doubt about it. I was asked many 
times over the past few weeks, ``well, in addition to farmers 
and ranchers, what is in the portfolio for the USDA?'' I 
pointed out to people that over half of the budget--fifty-five 
percent--goes into the nutrition programs. It is a significant 
piece of what we do. We grow food in abundance in this country, 
and we do it very, very well. We'll put emphasis in that area.
    For the Farm bill, I was lead governor for the Midwestern 
Governors' Association. Governor Tom Vilsack and I worked 
together on our thoughts, from a Governor's standpoint, on the 
Farm bill. I was lead Governor for the Western Governors' 
Association, also. The Farm bill comes up for reauthorization. 
Federal farm policy is very important.
    The last thing I would mention is this, because I could 
probably go on and on, but the last thing I would mention is 
this: I did lead trade missions all over the world. I just 
believe that trade is hugely important. There is not going to 
be 1 minute of drop-off in our emphasis on trade issues if I am 
confirmed by this Senate. To all those who might be out there 
listening or in the hearing room, I am going to do everything I 
can to push as aggressively as I can to make sure that markets 
are open to our food. It is important.
    I spoke yesterday with Senator Baucus about some issues, 
but one of the things that we talked about was the whole idea 
of international standards. Again, I just want to emphasize 
that I am going to put a tremendous amount of emphasis on trade 
issues and making sure that trade is fair and that it's open to 
the products that our farmers and ranchers produce in this 
country.
    The Chairman. Thank you.
    Governor, as Secretary of Agriculture, you will have to 
carry out the authorities of the Farm bill, the Farm Security 
and Rural Investment Act of 2002. It is my hope that you will 
continue to implement and carry out the authority as it exists 
in current law, as I am sure you will. Attempts have been made 
in the past year, since the passage of this law, to amend it 
and to make changes in different areas of the law, some of 
which have been noted by Senator Harkin.
    If confirmed as Secretary of Agriculture, how will you 
uphold and implement this law as passed by Congress?
    Governor Johanns. Well, as I indicated, I was, at least 
from a Governor's standpoint, a part of the process that led up 
to the Farm bill. It had some input from the State level.
    You know, Senator, here is what I would offer. The 
proposals that were made, of course, were before I arrived on 
the scene. I will do everything I can to work with this 
committee--both sides--to try to get your ideas and your input, 
to try to gauge your concerns as to where you think we need to 
put emphasis and where we need to support this Farm bill. 
Today, at least, I guess what I would say to you, the door is 
open. I will be over here talking to the committee and working 
with the committee.
    We all recognize, I certainly do as a Governor, having gone 
through two really difficult years from a budget standpoint, 
that budget issues are always out there. There is just that 
reality, and so I will do everything I can to work with you on 
those issues, also. My promise today is, Mr. Chairman, as these 
issues arise, I hope I can get your input. I hope I can be in 
your offices. I hope we can work through these issues because 
they are never easy, but I will do everything I can to work 
with you.
    The Chairman. Great. Thank you.
    USDA has announced that it will reopen the border to 
Canadian cattle under certain circumstances. You mentioned this 
briefly in your statement. Cattle ranchers all across the 
country are concerned, as they should be. In fact, I spoke with 
our colleague, Senator Conrad Burns, earlier this week from his 
home in Montana and gave him a commitment that we are going to 
hold a hearing on this issue in the short term. Within days of 
the announcement by USDA, the Canadian Government confirmed 
that a dairy cow from Alberta had tested positive for BSE. Now, 
there is a report in the Canadian press that the Canadian 
government tests of cattle feed revealed that 59 percent of the 
samples of cattle feed that were tested include animal proteins 
which are not supposed to be present.
    Given these last two developments, would it not be wise to 
postpone the opening of the border until we are sure of exactly 
what the situation is, relative to the Canadian issue.
    Governor Johanns. As a nominee, today, Mr. Chairman, I 
would not indicate any kind of decision to postpone opening the 
border, but again let me offer a couple of thoughts. This is a 
very important issue. One of the things I mentioned in my 
opening statement is that we are the nation's largest processor 
of beef products literally in the United States. We raise a lot 
of cattle. We have Cow-calf operators and we have fat cattle 
people in our State, also. This has occupied a tremendous 
amount of my time.
    You have indicated that you will have a hearing process, I 
believe in the clips I read this morning before coming into the 
hearing room. The House has indicated likewise that there will 
be a hearing process.
    Today, what I can offer to you is I will participate 
aggressively in that hearing. I have had some briefing from the 
USDA about the rule, and it is making its way through the 
process here, but I can guarantee you I will aggressively come 
up to speed on that and work with this committee. It is an 
important issue. From my standpoint, again, the offer is I will 
do everything I can to work with the committee and get through 
this process.
    I look at it from the standpoint of a couple of things: 
animal safety and food safety. We need to make sure that those 
issues have been touched, that we have paid attention to them 
and that we are doing the right things in those areas in terms 
of this rule and in terms of Canada. I will do that. I will 
make sure that I am ready to go when you are ready for the 
hearing.
    The Chairman. Great.
    Senator Harkin. Thank you very much, Mr. Chairman, and 
again thank you for recognizing Congressman Chambliss. I didn't 
see him sitting out there, but I, too, really want to thank you 
for working so closely together on the 2002 Farm bill. I don't 
know if I remember fondly, but I do remember the long weekends, 
and the Saturdays and the Sundays, sitting there hammering it 
out. Again, I want to publicly thank you for the great 
bipartisanship that we have worked to get that Farm bill. Thank 
you again, Larry.
    Governor Johanns, just a couple of things I want to cover 
with you. The Conservation Security Program, participation in 
it was much slower than what USDA predicted. They enrolled only 
2,080 producers, less than half of what they had projected.
    Further, because of the low enrollment, USDA had to make 
advanced payments in order to expend even the limited $41 
million that was available in 2004.
    Given the extremely high level of producer interest in CSP, 
Conservation Security Program, as I've said, every farm group, 
every commodity group, from rice to cotton to corn to wheat, 
everything are all extremely interested in this and supportive 
of it. Because of that, these low enrollment figures point to 
deterrence to enrollment in the program's rules.
    Now, we designed a program, the Farm bill. It was intended 
to be attractive to producers nationwide. We intended a 
significant and lasting conservation benefits from widespread 
participation. Again, I guess what I would like is your 
commitment that USDA will help achieve the original program 
objectives that were in the Farm bill. Before the CSP 
regulations are made final, will you examine the payment rates 
to producers and the restrictions and requirements imposed on 
them to make sure producers will enroll in the CSP as 
envisioned in the Farm bill and not be driven away from the 
program?
    My question is will you examine the payment rates and the 
restriction requirements prior to that final rule?
    Governor Johanns. Yes. Senator, I will. I'll take a look at 
those payment rates. I would say again you would not have to 
look very deep into my past as Governor to indicate that the 
conservation programs have my support. Our agricultural groups 
in state, as you described, have been very supportive. Making 
it work right and making sure that we can fund it and finance 
it are things that I'll do everything I can to work with you 
and other members of the committee and Senate on.
    Your observation is correct. The conservation programs very 
definitely garnered a tremendous amount of support from farm 
groups and the average producer out there.
    I might also mention, just simply because it's gotten some 
attention in a separate but related program, we have a CREP 
application pending in our State that we were very excited 
about, and Congressman Osborne and Senator Nelson and Senator 
Hagel have been helpful on that.
    I will--I would take a look at those.
    Senator Harkin. I appreciate that.
    Governor Johanns. I'll try to get back with you on that.
    The Chairman. Thank you, Governor.
    Governor Johanns. Thank you.
    Senator Harkin. Second, I mentioned earlier in my opening 
statement about the biobased products requirement that is in 
the Farm bill that applies not just to the Department of 
Agriculture, but to every Department and Agency; that they must 
procure biobased products when they are reasonably equivalent 
in per price performance and availability. When you consider 
how much the Federal Government buys every year of paper plates 
and plastic cups and spoons and knives and hydraulic fluid, 
they could be soy bean based. Things like that. You can see the 
potential benefits for this, both from a--there is a win-win on 
everything, from the environment to our rural areas. It is 
value-added agriculture.
    The rules and guidelines are over 2 years late. In April of 
last year, the Government Accounting Office, GAO, came out with 
a report; faulted USDA's leadership and management for the slow 
pace of carrying out this procurement requirement.
    Governor, would you be able to make the commitment that you 
will make the Farm bill's energy title, including the biobased 
procurement, a top priority?
    Governor Johanns. It will be a top priority, and, Senator, 
I believe I bring something to the table on this issue, as past 
lead Governor on the Governors' Ethanol Coalition. I chaired 
that, and, in fact, that was an area where Governor Hoeven and 
I--he was chair while I was vice chair and then I became chair-
-worked together. I've been a very big proponent in this area, 
and in our State, we even went beyond that and made sure that 
our money was where our rhetoric was. We've invested heavily. 
That's a piece.
    I am familiar with the issue you've raised. I'm not sure 
why 2 years have been involved here. It will be a priority for 
me. I know it's a priority for you, and I'll do everything I 
can to push that process.
    Senator Harkin. I appreciate that very much, Governor. 
Last, a lot of people think I am only being parochial when I 
talk about the National Animal Disease Labs, since it is in 
Ames, Iowa. It is a national lab, whether it is like CDC in 
Georgia. I do not think that Senator Chambliss or anyone from 
Georgia as being particularly parochial when they want the CDC 
to succeed and grow and have the best facilities, because it is 
a national facility. So is this National Animal Disease 
Laboratory. It just happens to be located in Iowa. Because of 
all the problems we are looking at--as I mentioned earlier, 
avian flu virus, the BSE problems that we are having, perhaps 
the imminent threat that could happen from intentional 
terrorists attacks on our food supply. It is just vitally 
important that we get this facility finished and upgraded as 
soon as possible. Thank you.
    Governor Johanns. Thank you. I'll share a story with you, 
if I might.
    Senator Harkin. Sure.
    Governor Johanns. My first spring break from Saint Mary's 
College, I came home, and I was doing chores and stuff; and we 
had a cow go down----
    Senator Harkin. Now, is this a story you can tell in front 
of your wife?
    Governor Johanns. Yes. I sure can.
    Senator Harkin. OK.
    Governor Johanns. We had a cow go down in the barn frothing 
at the mouth, and we drug it out. We took the head of that 
animal to that lab.
    Senator Harkin. To the lab.
    Governor Johanns. We found out that it was rabid. I went 
through the series of shots. No fun. I'm very familiar, very 
familiar, with that lab. They do good work.
    Senator Harkin. Thank you very much, Governor.
    The Chairman. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you. Conservation 
programs are obviously very important in all parts of our 
country, and the last Farm bill provides the opportunity for 
the Federal Government to take an even more active role in 
helping to protect the quality of our environment and to help 
sustain the private individual ownership of land. A lot of that 
land that has been put in production in the past in my State, 
for example, probably should never have been put in agriculture 
production, but it was.
    Now, we have the challenge of trying to figure out what is 
the proper balance, and I would encourage you to look carefully 
at the conservation programs we have on the books and to 
request the appropriations that are needed in the annual budget 
process to help ensure that these conservation programs meet 
the needs of our country, not just to the landowners, but the 
public generally.
    That is just a suggestion and an observation and a comment.
    One other thing: I was pleased to see you mention the trade 
opportunities and the fairness issue; the fact that our trading 
partners have to be held accountable for dealing with our 
country in a straightforward and honest way when it comes to 
opportunities for selling what we produce in their markets. It 
is such a big part of our economy now that it cannot be 
overlooked or just assume that it is going to work out, and 
then take it for granted.
    For example, I know in our State, people do not realize 
this but one of the largest money-making agriculture activities 
is poultry production. The export market is essential to a 
healthy poultry industry.
    Russia, for example, has been buying a good bit of poultry. 
From time to time, we may have a disagreement on some subject, 
and all of a sudden there is a problem with the quality of our 
poultry that has just been discovered and nothing has changed. 
That is used as an excuse to keep poultry out of that market.
    I hope you will have an opportunity to become acquainted 
with some of these specific challenges, and I wonder if you 
have any thoughts right now about what your role, as Secretary 
of Agriculture, could be in situations like that, to help 
ensure that our exporters are treated fairly in the 
international marketplace?
    Governor Johanns. As I indicated in response to the 
Chairman's question, trade is just a very, very significant 
priority for me. It was as Governor. It will continue to be if 
I'm confirmed as Secretary.
    I could not agree with your thoughts more. There is nothing 
more frustrating than to be working through a process that is 
not based upon good science, to be working through a process 
that has all the feel of being based upon political dynamics 
and whatever. We have to have an international approach that 
basically deals with these issues swiftly, otherwise we will 
continue to run into these problems that just extend for ever 
and ever.
    I believe, as Secretary, that I can play a key role here, 
not only in trade policies, but offering our input and then 
also offering the scientific information that is necessary to 
make good trade decisions.
    We have a lot of resources out there. Senator Harkin 
mentioned the facility in Ames, which I'm familiar with. Land 
grant universities all over this country are doing some 
remarkable things in terms of food science and biotechnology 
and safety issues. If we can bring them to bear and approach 
these issues in a way that really is based upon good science, 
then my hope is we can minimize them. We can aggressively 
address them and deal with them.
    Senator Cochran. One thing I noticed that there may be an 
emerging conflict of opinion about is the implementation of the 
U.S. Forest Service's regulations that have recently been 
published to implement the Healthy Forest Act provisions.
    I put a statement in the record yesterday congratulating 
the U.S. Forest Service on its actions in identifying the ways 
to properly implement the Act to help sustain our forests, to 
help ensure that managers have opportunities to exercise their 
judgment and not be burdened with a lot of unnecessary 
paperwork and requirements that take months, even years 
sometimes, to implement a forest management plan.
    I applaud the efforts that are being made by Secretary Mark 
Rey, others in the Forest Service, and the Department of 
Agriculture to carry out their responsibilities, and I hope you 
will assume leadership in this area, too, so that we can see 
that Act implemented and not be frightened by some of the scare 
tactics that are being published by those who criticize these 
efforts. I hope you will not back down and try to push forward 
and do what is right, carry out the provisions of this Act as 
written.
    Governor Johanns. You know, I will not, and I applaud their 
efforts also. There was a desperate need for action in this 
area. This was a major piece of our discussions at Western 
Governors, and, although we have more prairie land in Nebraska 
than forest land, I am very aware of the significance of these 
issues and the priority that this committee has placed upon 
these issues.
    I might also mention that I, just in the last week, have 
received information from the Western Governors on some of 
their discussions. I'll work with them. I'll work with this 
committee. Much is needed to be done here, and they are 
aggressively pursuing this agenda at the Forest Service. I'll 
do everything I can to support that.
    Senator Cochran. Mr. Chairman, I realize I probably have 
talked too long already, but I have been asked to ask a 
question on behalf of Senator Grassley, who cannot be here due 
to the President's request for a meeting this morning with him.
    On his behalf, I ask this: Senator Grassley was recently 
informed that the Japanese Ministry of Agriculture, Fisheries, 
and Forestry is still maintaining a protectionist position on 
U.S. beef importation. MAF, the Ministry of Agriculture, 
Fisheries, and Forestry wants to delay the pending importation 
of U.S. beef under the auspice that a change at the Secretary 
level should allow the process to slow down.
    Governor Johanns, you have talked about this issue with 
Senator Grassley and many others on this committee in the past 
few days. Could you reiterate your opinions about the 
importance of reestablishing the beef trade with Japan and the 
priority you plan to apply to this situation?
    Governor Johanns. Thank you for the question, and I'd 
express to Senator Grassley my appreciation for the question.
    Let me be as emphatic as I possibly can. There is going to 
be no let up, no slow down, in our efforts to reopen Japan to 
our beef products--none whatsoever.
    If there is one paramount reason why I am so very anxious 
to get confirmed, it's to go to work on that issue as a top 
priority. It is time, and I'm going to do everything I can, 
hopefully with the support of this committee and the support of 
everyone involved, to move this process aggressively. To Those 
are listening, and I suspect there are some in the hearing room 
and probably some tuned in to see what I'd say about this, I 
hope they just are aware of the fact that it is my intention to 
make sure that there's absolutely no slow down, no let up. This 
is going to have my immediate attention from the very moment 
that I become Secretary of Agriculture, if confirmed by this 
committee.
    Thanks again for the question.
    Senator Cochran. Thank you.
    The Chairman. Senator Baucus.
    Senator Baucus. Thanks, Mr. Chairman.
    Mr. Secretary-Designate, and first of all I wish you the 
very best of luck.
    Governor Johanns. Thank you, Senator.
    Senator Baucus. This is a tough job.
    Governor Johanns. Yes. Yes.

   STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM MONTANA

    Senator Baucus. You have a lot of different constituencies 
that are banging on your door. It is very, very tough. You are 
in a huge position of trust. There are also huge opportunities.
    No. 1, I would like to just spend a couple of minutes 
talking about the BSE matter.
    I was very pleased to hear you say that you believe in 
scientific standards, international standards. I am just 
wondering--I am asking you to take this opportunity--it is a 
huge opportunity for the United States. Essentially, the OIE 
standards are being somewhat met by some countries around the 
world, but not entirely. Even the United States does not 
entirely--countries to back off a bit, because of political 
reasons. In my view, and it is the view of most people, that 
the United States has a huge opportunity here to lead the 
countries worldwide in developing those standards and 
developing the transparency in the development of those 
standards and the implementation of those standards so that our 
producers and consumers are assured as well as possible that 
the BSE is being dealt with, and producers can produce their 
livestock, and the consumers can enjoy the results of all that.
    Otherwise, we are going to have a very difficult time. 
Frankly, I believe that this is the approach that must be taken 
not only with Canada, but also with Japan, Taiwan, and other 
countries, who have announced that they are going up, but have 
not done so.
    I am as concerned with the Ministry of Agriculture and 
Forestry and Fisheries as anybody else, and I know your are, 
too. We have to get moving on this. It is going to take a lot 
of effort. You know how large this bureaucracy and this Federal 
Government is, and how difficult it is to get something 
through. It is extremely difficult. I just urge you with as 
much intelligence and passion as you can muster to get moving 
on this and take the opportunity to lead.
    [The prepared statement of Senator Baucus can be found in 
the appendix on page 66.]
    Governor Johanns. Thank you.
    Senator Baucus. I would like your reaction to that, please?
    Governor Johanns. Yes. My reaction is aggressively the same 
comment. This is a huge priority for me. This is something that 
I can't wait to start working on, and Senator, with your help, 
the help of the other members of the committee, the help 
literally of anybody I can muster to this effort, I am going to 
do everything I can to reopen trade.
    Senator Baucus. I also suggest that you are going to have 
to go the extra mile on this, because there are a lot of 
producers that are wondering why did the United States make 
this announcement that is going to begin to open up with 
Canada, even though it knew the BSE problem into Canada. That 
was not public at the time, but USDA knew about it. Producers, 
they are not dumb. They know what is going on.
    The attempt to pull the wool over producers' eyes by 
announcing that we are going to let Canadian cattle in, albeit 
in under 30 months, but knowing at the same time, but not 
telling the public about the BSE problem in Canada, it does not 
help.
    Therefore, you have an extra burden to carry here. You have 
to develop the trust of producers more. It has been somewhat 
weakened on account of that timing.
    Governor Johanns. It's been very, very gratifying to me 
that many of those producers and many agriculture organizations 
have stepped up when my nomination was announced and said 
``Mike is the guy; we support this.'' I guess that indicates 
that they have built a level of trust with me in the time that 
I've been Governor.
    I take none of that for granted. I will do everything I can 
to work with producers and producer groups. I've done that in 
my time as Governor and intend to continue to do that as 
Secretary.
    Senator Baucus. Well, you are going to have to really work 
at this. I asked your predecessor to send a special envoy to 
Japan, to encourage the Japanese to get off the dime. It never 
happened. She did not do that. I do not know why.
    I encourage you to not only send a special envoy, but you 
yourself raise this personally, directly with your counterparts 
in Japan. I must tell you, in my experience with Japan on beef 
issues, and I have 27 years of history on this, that it is not 
going to be probably enough. This has to be bumped up to the 
Presidential level.
    President Bush is going to have to directly push Prime 
Koizumi on this directly. That is not going to be enough. You 
are going to have to have leverage. The United States is going 
to have to say to Japan either you do this or we are not going 
to do something, or vice versa. This has to be that way.
    As well as I, you are not the only one concerned with 
Japanese issues. You have the State Department. You got a 
Treasury Department. You got all these other kind of agencies. 
I just strongly urge you, as much as possible, and I strongly 
urge the President to take this one up directly, because, 
otherwise, it is just going to languish. It is just going to be 
a lot of talk. Talkie. Talkie. Talk. Talk. Talk. Talk. Talk. 
Not a lot is going to happen.
    Governor Johanns. Thank you, Senator.
    Senator Baucus. What are you going to do?
    Governor Johanns. Well, again, let me just reiterate. I'm 
going to do everything I possibly can. This has my personal 
attention. I am going to do everything I can to encourage the 
attention of everybody on this issue. It is time. The 
Department has done very, very good work in terms of addressing 
the technical and scientific issues that have been raised over 
the past year. I believe those issues have now been addressed. 
I believe the technical questions have been answered. I believe 
the scientific questions have been answered, and it's now time 
to get down to the agreement to reopen the border.
    Senator Baucus. Back to Japan. When I was over there not 
too long ago, and I raised this approach with Japanese 
officials--I did not see the Prime Minister, but his Cabinet 
Secretary--he clearly agreed that this is the right approach. 
We got a little daylight out of him, not a lot, but a little 
daylight. I just again urge you very strongly, with as much 
conviction and passion as you can possibly muster to get this 
thing solved in the right way, with the lay standards, 
international standards, based on science, so that both 
producers and consumers know that we are doing the right, 
getting the right approach and that they are going to get a 
good resolution.
    Governor Johanns. You have given me great direction and 
marching orders. I'm ready to go to work.
    Senator Baucus. Thank you. I wanted to go join with you the 
other dime.
    Governor Johanns. Great.
    Senator Baucus. Thank you.
    Governor Johanns. Thank you, Senator.
    The Chairman. Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. Governor, I was 
on WIBW this morning, the farm station in Topeka, Kansas. They 
were very much aware of this hearing, and they said what 
questions are you going to ask the Governor? I said, well, I 
have already done that, with a personal call that he made to my 
office. I went over them. It is pretty tough out there in terms 
of ice and snow. We probably had a lot of listeners, but I hope 
they are listening to this hearing as well, because I was 
terribly impressed by the comprehensive nature of your 
statement, because the farmers are looking for a bully pulpit 
champion to be the Secretary of Agriculture. Not that the 
previous Secretaries have not been. You have indicated that. 
You have a passion for this job. It is obvious.
    I want all farmers in Kansas and, for that matter, across 
the country to know that now we have a Secretary that can sit 
on the ``wagon tongue'' and discuss things with our producers 
in any state, all throughout the nation.
    We want to welcome you to Kansas. Ever since the Kansas-
Nebraska Act of 1854, we have been close, and our problems are 
your problems. Our challenges are your challenges. I want to 
invite you to come down to Kansas State and also any other part 
of Kansas during our State Fair, and sit on the wagon. Now, 
just do not come on game day. That might be a little tough.
    Senator Baucus. Mr. Chairman, if I might.
    Senator Roberts. I would insist on regular order.
    Senator Baucus. I would do it, too. It is the best way to 
proceed. Will there be other questions? A new round of 
questions?
    The Chairman. Yes. We will----
    Senator Baucus. Thank you.
    The Chairman. Go as long as everybody wants to go.
    Senator Baucus. Thank you.
    Senator Roberts. As a member of this committee, and 
Chairman of the Intelligence Committee, as I discussed with 
you, one of my top priorities is ensuring our national 
security. It has taken us about 5 or 6 years, but we have 
finally reached the point where the intelligence community 
rates our food security, which we used to call agroterrorism, 
but we do not do that, because it scares people now. It is in 
the top five concerns.
    The President issued last year--he made it a priority 
through Homeland Security Presidential Directive 9, H.S.P.D. 
9--everything has to be an acronym around here. That was last 
spring.
    What are your views in regard to the manner in which we can 
continue to strengthen our security in this area, including the 
complete coordination so that you are right there at that table 
in regards to the intelligence that we have to have with the 
CIA and the Department of Homeland Security and DOD and other 
relevant agencies?
    Governor Johanns. Needless to say, my goal, my plan is to 
be at that table and offer the viewpoint of Agriculture to food 
security, but I'd offer a couple specific things if I could.
    One is, on Plum Island, the Department of Homeland Security 
has laboratory facilities to deal with some of the most 
infectious diseases that may impact livestock, and, therefore, 
food supply. Personally, I believe there's a need for 
redundancy in that effort. There is a need to expand, if you 
will, that ability to do testing. We have many great facilities 
around the country, and I personally believe, with a fairly 
limited investment, we could improve our ability to do that 
kind of testing.
    Our border security. Gosh, you read a lot about border 
security, a lot of discussion about border security. My goal is 
to do everything I can with the Department of Homeland Security 
to make sure that what we are doing, we are doing in complete 
partnership with them in terms of security at our borders 
relative to our food supply.
    I would also say there is a first responder issue out there 
in this area, and that is with our State Departments of 
Agriculture across this country. We think we've done some 
really exciting things in our State relative to this whole 
issue of food security. We have plans in place. We go through 
drills. We do all of those things to be prepared in case that 
an event happens that we pray never happens. We've done a 
tremendous amount, and our Department of Agriculture is a part 
of that process.
    There's one last thing I wanted to mention, Senator, that I 
believe offers great opportunity. A few months ago, I announced 
a regional program in which we would work with States in our 
region, and there were nine or 10 that have joined in this 
effort. Our State, I put a couple hundred thousand dollars to 
start the planning effort. I believe there's an opportunity 
here for our States to join forces in a regional way. Maybe 
it's not necessary to build a lab in every university. It's 
necessary to have a lab in that area, in that region, so if you 
have a problem or an outbreak of some kind, you can test it. 
You can identify it. You can isolate it.
    Now, getting States to work together in a regional way 
takes some effort. I do believe there's great promise there, 
and I believe we also have much of the structure in place with 
our Departments around the country.
    Senator Roberts. I thank you for your answer. My time is 
up, but I do want to tag along with the comments made by 
Senator Baucus, although he has fled the scene here--pardon me, 
ridden off into the sunset. At any rate, this Japanese business 
is so important. Mr. Chairman, I am going to suggest that you 
and Senator Harkin and the rest of us get a letter going to the 
President indicating that the President and the Secretary of 
State, Secretary of Commerce, Secretary Rice and Gutierrez, the 
president himself, if any subject comes up in regards to Japan, 
certainly thanking them for the relief in regards to the 
tragedy over in that part of the world and in regards to 
Indonesia and the surrounding countries, every time we get a 
chance to talk to the Japanese, every member of this committee 
gets a chance to talk, whether it is, good morning, good 
afternoon, or good evening, we ought to mention this. It ought 
to be a total posse effort to get this thing done. The question 
read earlier by Senator Cochran on behalf of Senator Grassley 
is simply not acceptable.
    Mr. Secretary, I hope you would join us in this effort. It 
is going to take that kind of pressure. There is no reason that 
we cannot open up this market. Animals 30 months and younger 
just are not part of this problem. I would hope and suggest, 
sir, and I know you are going to have a hearing on the Canadian 
situation, I commend you for that. We have a bully pulpit 
champion now, and we ought to get everybody involved in the 
administration and everybody on this committee.
    I thank you, Governor.
    Governor Johanns. Thank you, Senator.
    The Chairman. Good suggestion. We will work on that.
    Senator Conrad.
    Senator Conrad. Thank you, Mr. Chairman. First of all, 
congratulations to you. I look forward to working with you.
    The Chairman. Same here.
    Senator Conrad. Congratulations to Chairman Cochran as 
well, on his new position.
    Senator Cochran. Thank you, Kent.
    Senator Conrad. There is somebody in the audience I want to 
recognize, too, and that is former chairman, Larry Combest, who 
those of us who were negotiators spent a lot of time dealing 
with on the last Farm bill. Really, I do not think I have ever 
dealt with anybody that was a finer Member of Congress or a 
finer member of the Agriculture Committee or leader than Larry 
Combest. Deeply knowledgeable and totally honorable. His word 
was gold. Those of us who negotiated with him at great length 
learned that about Larry Combest in the Farm bill discussion.
    Governor, welcome to you.
    Governor Johanns. Thank you.
    Senator Conrad. Congratulations on your selection as well. 
I very much enjoyed our visit.
    Governor Johanns. Thank you, Senator.
    Senator Conrad. Mr. Chairman, I sent a letter to your 
office and the ranking member asking for a hearing on this 
question of mad cow disease in Canada and opening the border. I 
understand you have already agreed to do that. I appreciate 
that very much. It is important.
    There are a lot of issues out there that have not been 
dealt with, and I ask you, Governor, if you would support the 
notion of a hearing before the rule is implemented.
    Governor Johanns. I believe that hearing is going to be 
prior to the expiration of the 60 session days, and so the 
answer is yes. If I'm confirmed as Secretary of Agriculture, 
you will have the participation of this department. My hope is 
that we can work with you to bring whatever information you 
need, bring the people in who have been a part of the process, 
and literally try to answer any questions you have.
    I will--if you want my personal participation or whatever--
--try to be as helpful as I can.

STATEMENT OF HON. KENT CONRAD, A U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. It is important, it really is. I appreciate 
that answer, Governor, and it is important. We look at our own 
FDA and what they are telling us. We have 19 import alerts 
concerning Canadian feed company products since October of 
2003. Eight of those alerts are still in force. There has been 
now a series of articles in the Canadian press. I just draw to 
your attention the article in the Vancouver Sun that said, 
``Secret tests reveal cattle feed contaminated by animal parts. 
Mad Cow fears spark review of vegetable-only livestock feeds.''
    If you go into the article, they report there, it is very 
interesting, a series of secret tests on cattle feed conducted 
by the Federal Government earlier this year--this was written 
in the middle of December of last year, just about 3 weeks 
ago--that these secret tests found that more than half the feed 
tested contained animal parts not listed on the ingredients, 
according to internal documents obtained by the Vancouver Sun. 
``The test results raised troubling questions about whether 
rules banning the feeding of cattle remains to other cattle, 
the primary way in which mad cow disease is spread, are being 
routinely violated.''
    It goes on: ``According to internal Canadian food 
inspection agency documents obtained by The Sun through the 
Access to Information Act, 70 feed samples labeled as 
vegetable-only were tested by the agency between January and 
March of 2004. Of those, 41--or 59 percent--were found to 
contain undeclared animal materials.''
    Now, that raises an enormous red flag for us with respect 
to what Canada is doing. My understanding is USDA has relied on 
the regulations that Canada has in place. If those regulations 
are being routinely violated, then we are counting on something 
that is not happening. That raises serious concern, and we need 
to fully review that and address that in a hearing and, 
hopefully, have time to react before this rule is implemented.
    Now, I have--the chairman has adopted, very reasonably, the 
early bird rule here. I was late to this hearing because I was 
called to a meeting about the budgets of the various 
committees. I was there, in part defending the Agriculture 
Committee budget because the chairman and ranking member, 
obviously, could not be at that meeting. I am going to defer my 
other questions in deference to my colleagues who were here 
before I was. I want to thank them for allowing me to go ahead.
    I thank the chairman.
    [The prepared statement of Senator Conrad can be found in 
the appendix on page 67.]
    The Chairman. Senator Talent.

  STATEMENT OF HON. JAMES TALENT, A U.S. SENATOR FROM MISSOURI

    Senator Talent. Thank you, Mr. Chairman. I appreciate that, 
Mr. Chairman. Congratulations to you.
    I also wanted to comment, as Senator Roberts did, on how 
much I appreciate the passion that the secretary-designate is 
showing toward agriculture. That is half the game. I am really 
looking forward to your service and think you will be 
confirmed.
    I certainly join with my colleagues on the cattle issues 
that we have been discussing here. Let me just go into a couple 
of other areas we have talked privately about, so I do not 
think they are going to come as a big surprise to you.
    I very much appreciated the parts of your statement 
regarding biotechnology, renewables, and value-added. I, too, 
see value-added agriculture as absolutely the future for family 
farming in this country. I hope you define it in a broad 
fashion, as I do. This is not a niche marketing just of a 
particular kind of a product, but it is our family farmers 
getting into the production at different levels of the food 
chain, the food and fiber chain, but also of other kinds of 
products that technology is going to make out of what we grow 
and raise.
    With a view toward that, give me your opinion, if you will, 
on the importance of plant science research and whether you 
will work with me and with the committee on how we can 
encourage that.
    That is one point I wanted to raise with you. Another, and 
we have talked a lot about BSE today, what do you think of the 
progress we are making toward an animal ID system? I am 
particularly concerned about your opinion on whether you intend 
to continue the department's policy under Secretary Veneman, 
which I--it is no secret that I appreciated and approve of, of 
working with industry and our producers in developing this 
system, so that they see it--it really is, and the perception 
is, that it is a voluntary system rather than a coercive one, 
developed and implemented so as to fit and partner with them in 
their practices on the ranches, rather than forcing something 
on them.
    Address those two issues. You have already talked about 
renewables. If you have anything further you want to comment--I 
just see that as the center, not just of value-added 
agriculture, but also energy independence for the country. I 
appreciate very much your pledge to continue working with us on 
that. If you could talk about, I guess, the plant science issue 
and the animal ID issue, I would appreciate it.
    Thank you, Mr. Secretary.
    [The prepared statement of Senator Talent can be found in 
the appendix on page 69.]
    Governor Johanns. I'm a real believer in plant science 
research. You know, in our State, again, that's been my 
experience over the last 6 years, so I'll talk about it. We do 
some very exciting things in the area of plant science. We have 
something we call the Beadle Center. It was a new investment by 
our State a few years back. Again, I just think this is 
cutting-edge for us. I will also say that I'm aware of many 
good things going on in other parts of the country.
    The only caveat I offer is that we all deal with budgets, 
and you have to figure out how that works. One of the things I 
did in our tobacco settlement is I led the charge to set aside 
10 percent of that for medical research a different area--but I 
just believe research in our university systems, and in the 
private sector for that matter, is just a great opportunity.
    Senator Talent. We understand in other contexts, and all of 
us talk about other contexts, the importance of research 
because it leads to technological changes that then increase 
productivity and open up other opportunities.
    Governor Johanns. Exactly.
    Senator Talent. I am wondering whether we have been 
conscious enough of that in agriculture.
    Governor Johanns. Well, I just believe there is more we can 
do. It is like I said in my opening statement. The yield we 
would get on corn if farmers would get together, and I remember 
them saying, ``Well, I get 100 bushels per acre,'' 125 bushels 
per acre''--Look at what's happened in a short period of time. 
Plus there's an opportunity to do things with plants that, 
quite honestly, could save lives and improve health. I just 
think there's remarkable opportunity here if we do the right 
things with our investments.
    Regarding, the animal ID system, if I might go to that 
question, I'm a believer. Again, you won't have to look very 
far back in my history. We did a trade mission, and I came back 
from that trade mission, and I said very publicly to our 
producers, ``I believe strongly we've got to move into animal 
ID.'' I held a conference on that to start the education 
process.
    Now, the department has also been working on this with 
premises ID, then ultimately animal ID. I agree with you. This 
should not be about picking winners and losers. The department 
should have an idea as to where we want this to be, but then 
again, the private sector, in my judgment, should have the 
opportunity to define an ID system that might work for this 
area.
    I was meeting--I'm sorry, I forget the Senator--maybe, 
Senator, it was you--about the optical scan for animal ID, 
which is something, quite honestly, I wasn't very familiar with 
but I knew it was out there. That may be an approach, but there 
are other approaches. Industry needs to be a part of this. The 
producers, the agriculture groups, and the industries that may 
provide the ID system.
    Then, finally, renewables. I really do believe that there's 
a unique opportunity for us right now in this whole area of 
renewable fuels. We are just in an explosion of growth with 
ethanol. I believe it can exist for other products such as 
biodiesel and on and on. In our State, we are now at a point 
where one in every five bushels of corn, one in every six 
bushels of corn, in that vicinity, is processed into ethanol 
and shipped to other markets. My attitude toward the value-
added initiatives that we did is you don't exclude anything. A 
small initiative may work in this part of the country, a much 
larger initiative may work in another part of the country. My 
experience as chairman of the Governors' Ethanol Coalition, 
will be very, very helpful if I'm confirmed by the Senate.
    Senator Talent. I appreciate those comments.
    Mr. Chairman, I am out of time. I have some other questions 
that I would like to submit to the secretary-designate for the 
record, though.
    The Chairman. Certainly, without objection.
    Senator Lincoln.

STATEMENT OF HON. BLANCHE LINCOLN, A U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman, and 
congratulations. I would just like for you to notice that I 
have had my brunch of Georgia peanuts this morning.
    The Chairman. You feel a lot better, I can tell, too.
    Senator Lincoln. I am also pleased that you are where you 
are, and I am looking forward to working with you in 
accomplishing much on this great committee.
    The Chairman. Thank you.
    Senator Lincoln. I also want to add my public comments of 
gratitude for Chairman Cochran for the incredible job that he 
has done here in the committee. Working with him on nutrition 
issues, our Delta Caucus, hunger issues, the Farm bill, he has 
just done a tremendous job and provided great leadership. I am 
very grateful. I am also grateful that there will not be any 
language barriers as we move from Senator Cochran to Chairman 
Chambliss. We in the South appreciate not having to have any 
translators. I look forward to, again, working with Chairman 
Chambliss.
    I also would like to offer my public gratitude to Secretary 
Veneman. She was wonderful to work with and very open and 
available--as the Governor has mentioned he will be, and we 
look forward to that.
    Governor, we welcome you to the committee and look forward 
to working with you.
    Governor Johanns. Thank you.
    Senator Lincoln. I'd like to echo the comments from my 
colleague and neighbor to the north in Missouri on the biotech 
and the plant sciences, having toured the Danforth plant 
science facilities in Missouri and realizing the incredible 
technology that we have that exists out there, we would love to 
work with you on really moving that forward. It means a 
tremendous amount to our country. As my colleague knows, it has 
meant a tremendous amount to other nations across the globe to 
be able to overcome whether it be drought or infestation and 
other things, to feed the millions of hungry that exist out 
there.
    I am also glad to hear your comments on biofuels and 
biodiesel in particular. We do not grow a lot of corn in 
Arkansas, but we do look toward the renewable fuels as a huge 
part of what we can do to boost our economy and create jobs. We 
know it will help our environment. We also know it will lessen 
our dependence on foreign oil. It is a win-win from every 
direction and we hope that we can make it a priority. I look 
forward to working with you on that.
    Governor Johanns. Thank you.
    Senator Lincoln. As a farmer's daughter myself--we are row 
croppers and still in the farming business. My brother is 
trying desperately to keep his head above water. We are very 
appreciative of recognition of the diversity that this 
committee represents across our Nation. There are regional 
differences, but more importantly, as you enter into this 
position, you will see how important it is to look collectively 
at the nation and the support that agricultural production 
provides this country in providing the safest and most abundant 
and affordable food supply, not just to Americans but certainly 
worldwide.
    I would just like to move to a couple of things and I will 
have additional questions I can submit.
    We have talked about--better than a year of earnest 
discussions with the Japanese government officials, to no 
avail, quite frankly, to getting a commitment from the 
Japanese. Just a few moments ago, I received a notice in a 
press release from Tyson Foods, which is the Nation's largest 
beef packer and one of my State's most respected and oldest 
corporate citizens--announcing that they will temporarily 
suspend operations in five of their beef plants for a period of 
three to 5 weeks--you know that well, because two of them are 
in Nebraska--beginning Monday. They estimate some 25,000 to 
30,000 cattle will not be processed each week that the plants 
are closed. I certainly think that this is a real indication 
that the rubber has met the road and shows how serious this and 
the other trade issues have become. I'm certainly pleased to 
hear you acknowledging the importance of trade to our 
agricultural industry.
    My constituents have briefed me on meetings with both the 
U.S. and the Japanese officials that have taken place recently. 
Their strong recommendation, and you have heard it from other 
members here, is that we have to move these discussions to 
another level. There is no doubt. We are seeing jobs, we are 
seeing an entire industry in our country critically damaged by 
what is not happening. I hope that we can look to you, to help 
us in endorsing and supporting the kind of envoy that Senator 
Baucus has mentioned or, more importantly, requesting the 
President himself engage the prime minister on these 
discussions. Thus far we are not getting anywhere in the 
current approach that is being taken.
    I hope we can look to you for that commitment of, as you 
said, doing everything you possibly can, but hopefully really 
going beyond that into where we need to go in asking for 
something that is going to work.
    Governor Johanns. Senator, I will. Let me say first, I have 
visited your State many times. You come from a very beautiful 
State.
    Senator Lincoln. We would love to have you back.
    Governor Johanns. Have me back.
    Senator, I will. This is priority No. 1. Reopening with 
Japan is, in my judgment, something that needs to occupy my 
personal time and effort. I will do everything I can to elevate 
and lift this issue. Because it's time. As I said, I do believe 
Under Secretary Penn and others have done yeomen's work in 
meeting the scientific questions and the technical questions. 
We are really at a point where, if there's one message to be 
sent today, I don't intend this confirmation process to be any 
slowdown in our efforts with Japan. Very, very much the 
opposite. I take this very seriously.
    What you have described relative to Tyson is a very good 
example of what happens when the trade system is disrupted. 
It's not just that producer out there in cow calf country, it's 
not just that producer who's feeding fat cattle, it's right on 
through the whole system. Believe me, it won't be long before 
your consumers are going to start asking, now, what is going 
on? Because it ripples through the whole system. It may take a 
little bit of time to do that, but that's exactly what happens 
when you have that kind of trade disruption.
    Senator Lincoln. Well, when corporate America has to be 
able to make those kind of decisions to be able to keep their 
head above water, it is really critical that we take note of 
it.
    Mr. Chairman, I note my time is up. I just would like to 
bring to the attention of the secretary-designee that since 
Congress did authorize the sale of U.S. agricultural products 
in 2000 and reinitiated it in 2002 to Cuba, there has been some 
widely reported ideas that the administration is considering a 
change in the requirements for those sales. I will be very 
interested to know your comments on that and what stance you 
will take within the administration on that issue as we talk 
about the importance of export markets and what it can do for 
our producers. That's a critical place where we have to be 
objective about what opening markets can mean, and what it has 
done. I have asked some specifics in my questions for specific 
numbers through the department that you can respond with and I 
will look forward to your answer on that, too.
    Governor Johanns. I will be happy to respond in writing to 
that question.
    [The prepared statement of Senator Lincoln can be found in 
the appendix on page 71.]
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    Welcome, Governor.
    Governor Johanns. Thank you, Senator.
    Senator Thomas. We are delighted to have you here and look 
forward to working with you.
    Governor Johanns. Thank you.

  STATEMENT OF HON. CRAIG THOMAS, A U.S. SENATOR FROM WYOMING

    Senator Thomas. I am going to be very short, as I have seen 
the red light on here quite a bit. Most of what I have to say 
is duplicative of the things that have already been said. I 
just want to go over a few of the things that are important to 
my state of Wyoming.
    One of them is, of course, country of origin labeling, 
which was passed by this committee a number of years ago, and 
is still out there. We need to get something done with that. We 
have talked about BSE and Canadian imports, of course, which is 
a are very, very important issue. It does seem as if we ought 
to be reluctant to expand those imports before other countries 
that we've been selling to in Asia are willing to take our 
products here as well. We need to take a look at USDA's 
announcing inconclusive results on BSE testing before that has 
really been determined. Beef exports have been very important. 
Nineteen percent of beef has been exported in the past, largely 
to Asia, and that really is very important to us if we are 
going to continue to be there.
    I just happened to be down in Argentina and Brazil a couple 
of weeks ago on world climate warming, and it looks like there 
is going to be great expansion of beef production, probably, in 
Brazil. That is one of the things we need to be concerned 
about.
    We had some problems with a USDA inspected laboratory 
concluding cattle from eastern Wyoming were infected with 
brucellosis. It turned out that that was not the case, that the 
samples had been contaminated. I hope we can take a little look 
at that.
    Interestingly enough, in terms of brucellosis, the 
University of Wyoming has a good deal of research going on 
there. We are working particularly with wildlife and how to do 
something with that, but there have been restrictions put on by 
USDA for homeland security reasons, so the University cannot go 
forward with this brucellosis research. I hope we can do 
something about that.
    Certainly we are always interested in the multiple use of 
public lands, particularly, of course, in the Forest Service 
that you will have control over and would like to have more and 
more local input into the decisions that are made by the Forest 
Service. We have some confusion with demo fees, but then we can 
work that out. They should only be on places where there are 
some services.
    Lots of things. I will not take more time. Most of the 
things here that already have been spoken about certainly are 
important to us. If we can look forward together on keeping 
agriculture in its important position with respect to domestic 
and trade issues, why that is what we can do.
    Thank you very much.
    [The prepared statement of Senator Thomas can be found in 
the appendix on page 73.]
    Governor Johanns. Thank you, Senator.
    The Chairman. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.

   STATEMENT OF HON. BEN NELSON, A U.S. SENATOR FROM NEBRASKA

    Let me begin by also adding my appreciation to Secretary 
Veneman for her very strong work on behalf of American 
agriculture. I want to compliment her on a job that has always 
been difficult. As a matter of fact, for a little while there I 
thought my colleague, Senator Baucus, in describing it as such 
a difficult job, might talk you out of it.
    [Laughter.]
    Senator Nelson. I want to talk you into it. It is a 
wonderful job. I know you will do great work in that regard.
    May I add my thoughts also about the problem we have right 
now with international trade. You have probably heard more 
about it than you might have anticipated. That was the case 
yesterday in the confirmation hearing for Secretary-designee 
Gutierrez in the Commerce Committee. Because I asked him 
similar questions. One of the things that you will learn here 
in a very short period of time is that no matter how many 
people have asked you the questions, if I have not asked it, it 
has not been asked yet. I said something similar to Mr. 
Gutierrez yesterday.
    In your future role with Secretary Gutierrez, with 
Ambassador Zoelleck, trade is going to continue to be in many 
respects the No. 1 economic concern for many of us. It is not 
the only concern, but it is a No. 1 concern because we are 
entering a world that from all the trade missions that you 
conducted as Governor, I know from my trade missions that I 
conducted as Governor, how difficult it is to continue to be 
able to export in many of these markets. These non-tariff trade 
barriers and protectionism continue to be a problem for us as 
we move forward.
    I would only urge that you follow my good friend Senator 
Roberts's advice about bringing your colleagues into the effort 
as well, because it is beyond the technical side. All the 
technical review has occurred, and maybe that was important, 
that we undertake that technical review. Now it has risen to 
the level of diplomacy at the highest level. The only thing to 
what Senator Roberts has said is that we also enlist the 
President and the Vice President in this effort as well because 
it has to be at the highest level. You and I have spoken about 
that, and we agree that that may be where it ultimately is if 
we do not get it resolved in the very near future.
    At times it might even seem like we are advocating trade 
wars or if they do not stop the protectionism we might have to 
go to our own devices to deal fairly, because free trade, in 
itself, in many cases results more in imports than it does in 
exports. I commend you for continuing the efforts of trade 
missions, and it is one of the value-added products that you 
bring to the job. You know first-hand what it is like to deal 
with foreign governments that may or may not be as interested 
in getting Nebraska products or American products as they are 
in making sure their products get here.
    Fair trade. Non-tariff protectionism has to stop. I am very 
happy that you are going to look at that very carefully.
    What I would like to ask, you have heard about the country 
of origin labeling, we heard about animal identification, and 
all these are becoming far more important than perhaps they 
were even 2 years ago, although some of us predicted that we 
might end up where we are today. As part of the discovery of 
BSE, the USDA has announced a new regulation which I thought 
was important at the time that it was introduced, and that was 
for downer animals, and applied across the board whether they 
were sick or injured. Now, as we think about the fact that an 
injured animal may not represent the threat to the food chain 
that clearly a sick animal does, do you have any thoughts about 
what you might do to take a look at that as we move forward?
    Governor Johanns. The downer animal regulation really went 
to the animals that show the greatest potential for risk. At 
this point, we have tested about 160,000 animals, 165,000 
animals. We continue to test them on an ongoing basis. That 
was, really, not done as a food-safety approach; it was done 
more as a ``let's see what's out there'', surveillance 
approach. Remarkably our animals have tested well through that 
process.
    You know, I guess what I would say, there's a point 
probably in the upcoming year where we'll take a look at that 
testing. We'll bring the folks in who have done it, review the 
science, and look at the whole area. Today I do have to tell 
you I supported Secretary Veneman when she announced that--
probably most of us did--just simply to assure the public that 
we were aggressively on top of this issue. I want to leave this 
hearing with that same assurance. Gosh, in the testing that's 
been done, which has been very extensive--lots of animals have 
been tested--our animals have done well in the past year. A 
hundred and sixty thousand. These are pretty remarkable 
results.
    Senator Nelson. Now when we know more because of the 
experience that we have and the testing that has been 
undertaken, we might be able to go back and take a look at that 
stopgap measure in light of what we know, and maybe make some 
modifications that would not--that would continue to reassure 
the consuming public, but would not overly burden the 
producers.
    Governor Johanns. Well, the one thing that we will have 
available with this testing is a body of information that was 
simply not available a year ago. It's a very extensive body of 
information. With that in mind, Senator, I'd be more than 
willing to engage in the conversation again as we near a point. 
The goal is to probably test about 250,000 animals, or 260,000, 
somewhere in that vicinity, and then take a look at how we're 
doing.
    Senator Nelson. Thank you. Congratulations. Good luck.
    Governor Johanns. Thank you, Senator.
    The Chairman. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Mr. Chairman, let me first offer my congratulations to you. 
You may be new in this position, but you have a long history of 
being a strong spokesperson for the American farmer and the 
rancher, chairman of the subcommittee in the House Agriculture, 
serving on this committee. I am honored to call you my chairman 
and my friend and to congratulate you on your leadership.
    I want to publicly acknowledge Senator Cochran, Chairman 
Cochran, who took time out of his busy schedule to visit with 
some of my farmers and ranchers in a town in Minnesota. He was 
an extraordinary gentleman, and it has been a pleasure to serve 
with him.
    I start with congratulations.
    Governor, great to have you here. Everyone is claiming a 
little bit of ownership here. You have that Iowa work ethic. 
The Governor got smart in Minnesota, attending St. Mary's 
College in Winona and graduating there. We are thrilled to have 
you here. I also have had the opportunity of knowing the 
Governor for awhile and his very talented wife Stephanie. The 
Governor served as mayor, but it was the bottom of the 
political food chain where I started. We worked together when 
he was mayor of the capital of Nebraska and I was mayor of St. 
Paul.
    You came before this committee and asked about earning our 
confidence. I will tell you, Governor, you have earned my 
confidence.

 STATEMENT OF HON. NORM COLEMAN, A U.S. SENATOR FROM MINNESOTA

    Governor Johanns. Thank you.
    Senator Coleman. You have earned my confidence from your 
outstanding record of public service. You have earned my 
confidence from the fact that, as many have said here, you have 
a passion for this. You have dirt under your fingernails, you 
grew up on a dairy farm. I believe you worked in a dairy 
processing plant to help pay your way through college. We get a 
twofer here, by the way. We get you and then we get Stephanie. 
America is going to be well served by your leading the 
Department of Agriculture. You have earned my confidence.
    Let me associate myself, in the short time I have, with a 
few of the things that have already been said--the comments of 
my colleague, Senator Talent, concerning renewable fuels. You 
have already provided leadership in that area for our States, 
for Minnesota, for Nebraska, for America. It is important. 
Senator Cochran talked about the Healthy Forest Program and 
asking you to assume leadership, and you said you would, that 
you would push forward. I want to stand with Senator Cochran on 
that regard. The comments of a number of my colleagues--Senator 
Baucus, Senator Grassley's questions about opening up the 
Japanese market. It has to be done, it has to be done now. We 
need leadership. We need leadership, we need the President to 
be involved.
    I had mentioned at one point in time, Senator Baucus had 
talked about appointing an envoy. Minnesota was the home of a 
former Ambassador to Japan, former Vice President Walter 
Mondale, who knows these issues. There are folks out there who 
would serve and work with you. We need to move forward. It is 
an area of extraordinary importance.
    During the chance that we had to visit, we talked a little 
bit about sugar. Minnesota is the largest sugar producing and 
processing region in the Nation, and it is important to our 
folks. The dump price, world dump price for sugar is about 6 to 
8 cents per pound, and the average price of production is 
around 16 cents. We have a problem here. It is a global 
problem. I would ask, Governor, that you work with us as we 
work on trade agreements. We have a nice template in Australia, 
with the concept that sugar needs to be dealt with in a global 
context. It needs to be dealt with in the context of the WTO. 
That is the right thing to do. All we are talking about here is 
leveling the playing field, that other nations provide--they 
subsidize and they protect their producers. We have a no-net-
cost-to-the-taxpayer program, but we are looking for a level 
playing field.
    I would just ask you, Nebraska has--in addition to 
everything else, Nebraska has sugar.
    Governor Johanns. Yes.
    Senator Coleman. I know you understand this issue. I just 
want to reiterate here the importance of it and that we work 
with our trade representatives and that you raise that very 
powerful and articulate and knowledgeable voice of yours in 
regard to this issue.
    Governor Johanns. Well, thank you. Your observation is 
right. We do have sugar, mostly in the western part of our 
State, in the Scotts Bluff area.
    Senator I look forward to working with you on the issue. I 
will be happy to sit down and bring to bear whatever 
information I can bring so we can make thoughtful decisions 
about this area.
    I'll just also offer, on a general note, it's an exciting 
possibility that we will have an opportunity to work together 
in the future. Thank you for your generous comments.
    Senator Coleman. I am looking forward to that, Governor.
    One other area, again, where you have already shown 
leadership and knowledge, and that is in rural development. I 
will just raise the issue of too often we think that we have 
solved the problems of the American farmer by a farm bill. Yet, 
as you well know, there are infrastructure issues out there. 
You have magnificent folks, by the way, your rural development 
folks, the ones in Minnesota. Really quality people, folks 
around the country. You have that Red Leg Program, rural 
development loan and grant program--very critical, very key.
    Again, I know what you are bringing to the table here. I am 
excited about the opportunity of moving forward with you and 
just, again, want to thank you for what you have already done 
for the State and the Nation and for what I know you are going 
to do. I look forward to confirming, voting for you, and 
working with you.
    Governor Johanns. Thank you, Senator.
    Senator Coleman. Thank you.
    [The prepared statement of Senator Coleman can be found in 
the appendix on page 74.]
    Senator Roberts [presiding]. Senator Salazar.
    Senator Salazar, welcome to the committee, and we welcome 
your period of questioning, sir.
    Senator Salazar. Thank you very much--I guess it is 
``Acting Chairman'' Roberts.
    Senator Roberts. Well, you can just drop ``Acting.'' This 
is----
    Senator Salazar. This is the real deal, huh?
    Senator Roberts. Well, this is a coup, is what it is.
    [Laughter.]
    Senator Roberts. I had--I better just be quiet after that 
one. Senator Salazar is recognized.

  STATEMENT OF HON. KEN SALAZAR, A U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Senator. Members of 
the committee, Chairman Chambliss, Senator Roberts, and Senator 
Harkin, I very much look forward to working with all of you on 
this very, very important committee to my State and to this 
Nation. Governor Johanns, I very much look forward to working 
with you on an agenda for agriculture and for rural America.
    It is an important issue for me because I come from the 
fourth-poorest county in the United States of America and the 
poorest county in the State of Colorado, Conejos County, about 
265 miles south of Denver, Colorado. I do believe that what we 
need to do is to engage in an agenda that revitalizes our rural 
communities. I do believe that this is something that 
transcends Republican and Democratic administrations. When we 
look at the high plains areas in eastern Colorado and the areas 
to the west of Lincoln, Nebraska, you and I and the members of 
this committee know exactly what we are talking about in terms 
of having a vibrant effort in this Nation that really attempts 
to revitalize our rural communities, that actually goes not 
only in support of agriculture, but beyond agriculture, with 
respect to diversifying our economies.
    Let me say that as attorney general for the State of 
Colorado for 6 years, on my desk I had a sign that I am very 
proud of, and it is a sign that says ``No farms, no food.'' It 
is something that is important for us to remind our Nation 
about in terms of the importance of farmers.
    I have a series of questions, and Mr. Chairman, I will just 
submit those questions for the record. Many of those have 
already been asked. I also ask that my statement be accepted 
into the record.
    Senator Roberts. Without objection.
    [The prepared statement of Senator Salazar can be found in 
the appendix on page 76.]
    Senator Salazar. I do have a couple of questions that I 
just very quickly want you to comment on. One is your position 
on country of origin labeling and the requirements of the law, 
and where you intend to go with that.
    Second, Forest Service issues are incredibly important for 
Colorado and for many of us in the West. The water rights 
issues, it seems like I have been fighting the Federal 
Government forever on bypass flows and reserve rights. Tell me 
what your views are on Forest Service and water issues.
    Then--well, that is--and then I would ask if you could 
respond to the questions that I have asked in writing.
    Governor Johanns. I will be happy to respond to your 
written questions and will do so promptly.
    Let me, if I might, start with the Forestry Service, 
because of course that is a very huge issue in your State, and 
your State has suffered through some very, very difficult 
forest fires--not so much this year because the moisture was a 
little bit better, but certainly in the past few years.
    I will do everything I can to help in that regard. The 
Healthy Forests Initiative is out there, we have a team at the 
USDA that has worked on it aggressively. The Western Governors' 
Association, which our State has been a member of, has been 
very active in that area and, as I was indicating, we recently 
got a report from the Western Governors' Association with some 
recommendations and some suggestions as to how to continue this 
initiative.
    I might also add, Senator, that's been a very bipartisan 
effort. Governor Richardson from New Mexico is involved, 
Governor Owens from Colorado, and others. Their effort has been 
in trying to do everything they can to produce a result that is 
good for forests. I promise you it will be a priority for me, 
and I will do everything I can to continue that effort.
    In regards to the water rights issue, I am aware of that. 
Our States have dealt with water rights issues on a State 
level. I understand the importance of that. The issue that you 
speak of, probably the best I can offer today is to say, look, 
I'm going to do everything I can to make sure that stakeholders 
are involved in the discussion. It's been raised by a couple of 
Senators, a couple of your colleagues, as I've made my way 
through the offices and talked to Senators, and I know it's 
important. My goal here is to make sure that everybody is at 
the table as we deal with that and try to work through those 
issues. There was a memorandum of agreement that was entered 
into. I'm aware of that. I must admit today, I can't give you 
the ``what i's were dotted and t's were crossed'' analysis, but 
I'm also aware that that's out there. We'll work with the 
stakeholders on that.
    Country of origin labeling. You know, the administration's 
position has been one of a voluntary approach. As the 
secretary, I would adopt the administration's position. I also 
recognize that the law has been passed. I want you to 
understand that if that's the law, then that's what I'll be 
working with. That's what I would offer on that issue.
    Thank you.
    Senator Roberts. I take it from the nod of the head that 
the distinguished Senator from Colorado has finished his 
questions.
    Senator Salazar. Well, I see my time is up.
    Senator Roberts. In the Senate, that usually does not make 
any difference.
    [Laughter.]
    Senator Salazar. It is different from being in court, 
right?
    Senator Roberts. I stand in awe of your adherence to the 
time equation.
    The distinguished Senator from Minnesota, Senator Dayton, 
is recognized.
    Senator Dayton. Mr. Chairman, my distinguished colleague 
soon will learn that normal human assumptions do not apply in 
the Senate.
    Mr. Secretary-designate, I join with the others in thanking 
you for undertaking this service. I might say that the standard 
of excellence that has been established in my 4 years here in 
Washington by former Nebraska Governors is one that you will do 
well to emulate, and I am sure you will.
    I might also echo what my colleague said about the 
educational strength of your family. I note that your wife 
Stephanie is also a graduate of a Minnesota college, St. Olaf, 
as well as yourself at St. Mary's. We are glad to have had that 
chance, and we invite you both back to revisit your once-home 
many times.
    I also want to add my compliments to Secretary Veneman and 
wish her well in her future undertakings.
    As you noted, one of the advantages to a 5-minute round of 
questioning is that most of our questions last for about four 
and a half minutes, so you are off the hook. I will not go over 
some of the ground that has been covered here on the export 
issue.
    I just want to point out, however, for the record, that, 
increasing our agricultural exports is a--that is one where we 
do have the bipartisan acclaim and it is American apple pie. 
The real crux of these trade policies is how they cut both 
ways. I note that since NAFTA was passed, so over the last 
decade, the increase in agricultural imports into the United 
States is two and a half times greater than the increase in the 
value of our agricultural exports to the rest of the world. 
This is a two-sided balance sheet.
    That is why--while I applaud your efforts to open up the 
Japanese market, we need to consider how these swing both ways. 
In particular, if one of the objections to our meat is its 
impeccable standard--and I can understand why other countries 
take that approach--the consequences of our opening up our 
border to Canadian beef imports, and to test 160,000 cows and 
then run the risk of one or two imported animals causing, 
whether it is scientifically credible or not, this massive 
world scare that is going to close those doors to us further 
and give those countries excuses to continue their 
protectionist policy is a very ill-considered decision. I am 
glad that we are going to have a hearing on it, and I hope that 
will be in the very near future.
    I echo what my colleague from Minnesota said about the 
sugar situation, and we are once again faced with CAFTA, where 
we are opening our doors further to other countries to bring 
their products into our country, where, according to the 
information I have received from--it is actually a University 
of North Dakota study, that we already have basically saturated 
the markets in those Central American countries for our primary 
agricultural exports. Seventy to 90 percent of their purchases 
are U.S. wheat and corn. The upside for us in agriculture is 
relatively limited and we are once again opening our domestic 
market and running the risk in northwestern Minnesota--Senator 
Coleman has been as involved in this as I have--of shutting 
down an entire industry, collapsing an entire regional economic 
cornerstone of several billion dollars. Again, very ill-advised 
and not well considered.
    I take heart in your comments in our meeting, and I 
appreciate that, that you are going to be a champion for U.S. 
agriculture at these trade negotiations, because we ought to 
be--I do not care whether it is free trade, fair trade, what 
you want to call it, I want it to be American trade. I want us 
to make our decisions in the best interests of our country and 
its people, and that is sometimes a complex consideration, but 
I do not think the ideological label matters a bit. It matters 
how does this benefit or how does it hurt our own people, 
especially, in this case, our farmers.
    I ask you for that close consideration, and particularly 
with Canada, where we have had problems with milk protein 
concentrate coming into our country and molasses as a 
substitute for sugar in violation of the spirit if not the 
letter of these agreements, and other trade policies. You know, 
we have to stand up for ourselves because no one else is going 
to do it for us. I welcome your leadership in that area.
    I would also ask just to go on the record regarding our 
discussion in my office about the milk income loss program that 
is going to expire. If you could repeat what--the President's 
commitment there, I would appreciate it.
    Governor Johanns. Well, the President, when he was in 
Wisconsin, spoke to that issue and indicated he would work with 
Congress on the reauthorization of that program. Let me assure 
you, I will likewise.
    Senator Dayton. Thank you. Also, I would like to, in my 
brief time remaining--and I hope we will also--I am going to 
ask the chairman to hold a hearing in the very near future on 
these biofuels. I commend you for your leadership on the 
Governor's level. We all look forward to working with you. 
Senator Coleman set up a task force regarding that. It is of 
vital importance to Minnesota, and I hope we can really push 
that. We give a lot of lip service to it. We don't have the 
Federal and, in many States, the action to back that up. I look 
forward to pursuing that with you later.
    One question I would like to just add in my remaining time, 
the President in Minnesota recently announced his support for 
the Conservation Reserve Program, which has over 30,000 
Minnesota farms enrolled. I would like to hear your views on 
that. Again, we can carry that forward later, but I would ask 
you if you will be implementing the President's directive to 
make available new contracts to the soon-to-expire contract 
holders.
    Governor Johanns. Well, if it is a Presidential directive, 
let there be no doubt.
    Senator Dayton. Well, that is my paraphrase, my staff's 
paraphrasing of that. I do not want to speak for the President.
    Governor Johanns. Yes, I don't either.
    Senator Dayton. We take everything he says in Minnesota as 
gospel. Wisconsin, we are not so sure sometimes, but Minnesota, 
for sure.
    Governor Johanns. I can just offer you my experience. As 
Governor, I was very supportive of the conservation programs. 
Now, again, we all recognize that there are some issues here, 
and I will do everything I can to work with the administration 
and this committee. You would not have to look very far to find 
quite a few positive statements about the conservation programs 
during my tenure as Governor of Nebraska.
    Senator Dayton. Well, I wish you well. I look forward to 
working with you. Thank you for your commitment to our country.
    Governor Johanns. OK, thank you, sir.
    Senator Dayton. Thank you, Mr. Chairman.
    Senator Roberts. The champion of specialty crops and 
cherries and the Senator from Michigan is now recognized, 
Senator Stabenow.

STATEMENT OF HON. DEBBIE STABENOW, A U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Thank you, Mr. Chairman. I am so pleased 
that you were listening as I was speaking about specialty 
crops.
    Welcome, Secretary-designate Johanns.
    Governor Johanns. Thank you.
    Senator Stabenow. We have as well spoken about that. I want 
to add my words of thanks to Secretary Veneman and for the 
working relationship that I had with her, and wish her well. 
For our former chairman, Chairman Cochran, and our ranking 
member, Senator Harkin, who worked together in a very 
bipartisan way, as we have all said. Agriculture is not a 
partisan issue. It may be State by State in terms of different 
regional issues, but we all come together very strongly wanting 
to make sure that the right thing is done for our farmers and 
for all of us as consumers of these important products, and 
businesses as well.
    I congratulate our new chairman.
    There are so many issues in Michigan. I had mentioned to 
you, Governor Johanns, that next to California, Michigan has 
more crops than any other States--49 different crops. I could 
speak about any of the issues that we have talked about this 
morning and it would have relevance to Michigan.
    What I would like to do is speak about and ask your 
consideration and leadership on things that we have not focused 
on that are particular to Michigan and other States, that have 
not been addressed today. I was very pleased to hear your 
emphasis on infectious disease, which is a critical issue for 
us in Michigan as well as farmers across the country. I am very 
interested in your beetle center that you spoke about with 
plant science, and also would welcome and invite you to come to 
Michigan State University, my alma mater, that has a very 
important national food safety center and is really a leader in 
research on so many of these issues. We would welcome the 
opportunity to show you the important work that is being done 
there as well. Growing up in a small town in northern Michigan 
in a farming community, we rely very heavily on cooperative 
extension in Michigan State and are very proud of the efforts 
going on in Michigan.
    This morning the State of Michigan announced the first 
known case of human bovine TB in Michigan in many, many years. 
Now, this is not an immediate concern in the sense that it will 
spread. We do not believe that this is an immediate crisis for 
people. This was a hunter who was in fact dressing a deer, cut 
himself, but was in fact infected by a deer that clearly had 
been showing physical signs of bovine TB. This is a very 
important issue to Michigan. I know in seeing former Chairman 
Combest from Texas, this is an issue for them as well. We have 
very serious needs, communities that have lost millions of 
dollars, issues for our farmers in terms of eradication and 
testing, and now this new human dimension.
    I first would ask for your commitment to work with me on 
issues that relate to partnering with the State, in terms of 
financial commitment, to help our farmers and to help the State 
with additional testing requirements that are critical now--
have been critical--as well as other issues. I have asked this 
last year, we submitted a request for $5 million to assist 
farmers and that was not successful. We will be asking again. 
It is even more relevant now as a result of this individual who 
was found to have TB.
    I raise that with you. I am going to continue on, just only 
because of my limited time.
    Governor Johanns. Please do.
    Senator Stabenow. I want to make sure I raise two other 
issues. That is one. There are a number of issues of infectious 
disease that address us in Michigan, of specialty crops as well 
as bovine TB as well as a number of issues.
    Invasive species I have also talked with you about. Emerald 
ash borer, which has already killed 8 million trees-plus in 
Michigan, ash trees. A critical issue. That is why I am 
interested in your beetle center, because we are seeing now a 
new Asian-type beetle coming in. We have some real challenges 
that need to happen. I am very interested in working with you 
as it relates to APHIS. I know that was moved to Homeland 
Security. There have been a lot of questions about that, 
whether or not the focus is there, whether or not it really is 
appropriate to be there. I would appreciate a follow-up from 
you about what is happening with APHIS, what is happening with 
inspections, and how you will work with us to beef that up, 
because this is very, very serious.
    The final thing I will mention, as my colleague and 
chairman for the day has indicated, specialty crops, fruits and 
vegetables are critical to Michigan and many other States. In 
fact Senator Gordon Smith and I chair a fruits and vegetables 
caucus, and Senator Larry Craig and I are working on specialty 
crop legislation. In the Farm bill there is very little that is 
helpful to fruit and vegetable growers. The Section 32 that 
deals with commodity purchases is one area where we had a 
victory in the Farm bill, but it is not being implemented by 
the Department, to add an additional $200 million a year for 
commodity purchases that are critical. I am going to be looking 
forward to working with you to address that provision of the 
Farm bill.
    The other provision deals with the Tree Assistance Program, 
which again, it seems like we move forward, we made progress in 
the Farm bill, and then it is not implemented. It is 
implemented differently than it is for other commodities. Our 
Tree Assistance Program is critical for orchards. This is their 
capital. When we have a drought, when we have the floods, when 
we have other weather situations that destroy the orchards, 
they are destroying the industry for people. In the Farm bill 
we had put in a maximum compensation of $75,000 in tree losses 
per year for our specialty crop growers. This is being 
interpreted as $75,000 in loss for the life of the Farm bill. 
In every other commodity, in fact, these are annual losses, 
annual bases and limits. In the Tree Assistance Program, it was 
put in as over the life of the Farm bill. This is very serious 
for apple growers and peach growers and cherry growers. I could 
go on and on. I am looking forward to following up with you on 
those issues.
    I have run out of time, but I would welcome any brief 
comment from you on any of these issues. Know that those of us 
who represent large numbers of fruits and vegetable growers are 
very serious about working with you to correct interpretations 
in the Farm bill that have not been what we believe we 
successfully wrote into the Farm bill. On these other issues, 
on invasive species and issues that relate to disease, these 
are critical for so many of our farmers.
    [The prepared statement of Senator Stabenow can be found in 
the appendix on page 78.]
    Senator Dayton. Mr. Chairman, I am sorry, but I have to 
leave. I am told I am the quorum. If we are going to----
    Senator Roberts. If I might respond. If everybody can stay 
put, we are trying to get in touch with the new chairman with 
the thought--the suggestion by Senator Harkin that we could 
actually vote this today and leave the vote open until 5 
o'clock. Obviously, if I could, I would vote proxies. We do not 
have those proxies and the members were not aware that we could 
have a vote. If we do not have a vote today, it would be 
delayed until January 20. I see no reason for delay. The 
nominee has unqualified support on a bipartisan basis. If 
members would have patience and listen to the distinguished 
former chairman from Vermont, I would appreciate it.
    We are into a second round, which we now call the Baucus 
Round. If we have a little patience, we are trying to get ahold 
of Chairman-designate Chambliss. If he agrees, we will go ahead 
and then hold the vote open until 5 o'clock, and we can get 
this done. We do need a quorum, and we have a quorum now.
    Senator Harkin. Mr. Chairman.
    Senator Roberts. The Senator is recognized.
    Senator Harkin. To all the members on our side, if for some 
reason you have to leave, if you could give a proxy on this to 
your staff so that we would have it in hand, I would sure 
appreciate it.
    Senator Roberts. How many do we need?
    The distinguished Senator from Vermont and the former 
chairman, Senator Leahy.

  STATEMENT OF HON. PATRICK LEAHY, A U.S. SENATOR FROM VERMONT

    Senator Leahy. Mr. Chairman, thank you very much. I will be 
brief, not to hold this up. We are holding confirmation 
hearings at the same time. Judge Gonzales is over in the 
Judiciary Committee, where I have been spending most of the day 
and I am going back to.
    He is probably not--the issues being raised with Judge 
Gonzales are somewhat different than the issues being raised 
with you. The unanimity of opinion is probably not the same in 
that hearing.
    I appreciated our chat we had on the phone, Governor, and 
my experience as former chairman of this, Senator Roberts's 
experience, a former chairman in the other body, Senator 
Harkin, and others, there are occasions in the Agriculture 
Committee where we actually ask parochial questions, not just 
national policy. If I might.
    Our State, in agriculture, has a lot of dairy, as I 
mentioned to you. I mentioned to you when we chatted on the 
phone that your growing up on a dairy farm in Iowa, that is 
more than just a job; it is a way of life. It is very hard way 
of life, but it is remarkable and is very helpful to us in 
different parts of the country. I heard your answer to the 
question of, I believe, Senator Dayton about you want to 
fulfill the President's commitment to extend the milk program 
before it expires in December, the Milk Income Loss Contract 
Program. Does the administration's budget contain this kind of 
an extension?
    Governor Johanns. Senator, I have had no briefing 
whatsoever on the administration budget, so I just can't offer 
anything that would help us there. I do know what his statement 
was in Wisconsin, I have committed to that statement, so that 
is about what I can offer.
    Senator Leahy. Well, I was told at the time by the White 
House that they are committed to that. I would hope that, now 
that the election is over, the commitment, I would assume, will 
continue. I would have much preferred to reinstate the 
Northeast Dairy Compact, which does not cost the taxpayers 
anything. I do know the administration opposes that, so it 
perhaps will not happen. Or I look at something like the 2002 
Farm bill, and I know the former chairman of the House 
committee, Mr. Combest, is here in the audience. He did a 
tremendous amount in helping put that together, brought 
Republicans and Democrats together from different parts of the 
country, and the milk program has had thousands of dairy 
producers, especially during the historically low prices we 
have seen in recent years.
    I hope it will be extended. I have worked a great deal on 
environmental issues, as have others on this committee. As a 
former farmer, you understand that many times the first 
environmentalist in a community is the farmer. I hope we can 
continue to work on those.
    Mr. Chairman, I will put any other questions or matters in 
the record and I will leave my proxy with Senator Harkin.
    [The prepared statement of Senator Leahy can be found in 
the appendix on page 81.]
    Senator Roberts. If the Senator could----
    Senator Leahy. Where do you want it to be?
    Senator Roberts. I am not going to go there. If the Senator 
could stay to maintain a quorum of 11, there is a possibility 
that, if we can reach Senator Chambliss, that we could actually 
vote on the nomination as of today. That is why I am urging 
members--I know we have a joint session at 1, I know members 
have other duties. If we do not, it would be January 20. I know 
of no opposition to this nominee.
    If we can somehow have one member and then have the vote 
simply held open until 5 so members can vote, either by proxy 
or by designation, that would be the whole----
    Senator Leahy. Mr. Chairman.
    Senator Roberts. I said there was going to be a coup. I 
guess this is what we are doing.
    Senator Leahy. We may have a vote on the floor this 
afternoon. If we did, we could always meet off the floor.
    Senator Roberts. Yes, that is a possibility. I do not know 
what----
    Senator Stabenow. Mr. Chairman.
    Senator Leahy. I know you are working hard on this, but 
Chairman Chambliss could----
    Senator Stabenow. Mr. Chairman, I would just interject and 
support Senator Leahy's request that we do this as we are on 
the floor this afternoon. Unfortunately, I am going to have to 
leave. I am very supportive of our secretary-designee, and----
    Governor Johanns. Thank you.
    Senator Roberts. Is the Bing Cherry Caucus meeting?
    Senator Stabenow. Yes, the Cherries Apples Blueberries 
Asparagus--yes.
    Senator Roberts. I am sorry I asked. Go ahead.
    Senator Stabenow. I certainly have remained as long as I 
can, but I am going to have to----
    Senator Leahy. We do have eight Democrats here. We are 
trying to help you, Mr. Chairman.
    [Laughter.]
    Senator Roberts. It is the first time I have really enjoyed 
this ratio, I can tell you that.
    [Laughter.]
    Senator Leahy. Maybe if one or two Republicans could drop 
by, too, we could get the President's nominee out of here. I 
intend to support him.
    Senator Roberts. Well, we are trying. I know you would say 
we have been very trying. We are trying the best we can.
    Senator Leahy. You were not here with former Senator Howell 
Heflin, but he used to say ``Sound the pachyderm horns.''
    Senator Roberts. Now we have 11. Do you want to do it?
    Senator Stabenow. Yes, that is fine.
    Senator Roberts. We have 11.
    Senator Leahy. I knew if I talked long enough we would get 
another Republican. As soon as they heard I was speaking, they 
found another Republican to show up.
    Senator Roberts. I ask unanimous consent that, since there 
is a quorum of the Agriculture Committee, being 11, that we 
move now, prior to the second round of questions, on a vote in 
favor of the nominee and that this vote be held open until 5 
o'clock so that all members can register their vote. You know, 
obviously the nominee could be passed by proxy, but quite 
frankly, we did not expect a vote. I am very hopeful of hearing 
from Senator-designate and Chairman-designate Chambliss.
    All those in favor of the nominee will signify by saying 
aye.
    Senator Harkin. Mr. Chairman.
    Senator Roberts. We need a roll call.
    Senator Harkin. No, no, no. I want to make one thing clear 
on the unanimous consent, that we are also waiving the 1-day 
holdover requirement.
    Senator Roberts. That is correct. If somebody will ask for 
a roll call vote, I would be happy to acknowledge.
    Senator Harkin. I ask for a roll call vote.
    Senator Roberts. The clerk will call the roll.
    The Clerk. Senator Harkin.
    Senator Harkin. Aye.
    The Clerk. Senator Leahy.
    Senator Leahy. Aye.
    The Clerk. Senator Conrad.
    [No response.]
    The Clerk. Senator Baucus.
    Senator Baucus. Aye.
    The Clerk. Senator Lincoln.
    Senator Lincoln. Aye.
    The Clerk. Senator Stabenow.
    Senator Stabenow. Aye.
    The Clerk. Senator Nelson.
    Senator Nelson. Aye.
    The Clerk. Senator Dayton.
    Senator Dayton. Aye.
    The Clerk. Senator Salazar.
    Senator Salazar. Aye.
    The Clerk. Senator Lugar.
    [No response.]
    The Clerk. Senator Chairman. Senator Cochran.
    [No response.]
    The Clerk. Senator McConnell.
    [No response.]
    The Clerk. Senator Roberts.
    Senator Roberts. Aye.
    The Clerk. Senator Talent.
    [No response.]
    The Clerk. Senator Thomas.
    [No response.]
    The Clerk. Senator Santorum.
    [No response.]
    The Clerk. Senator Coleman.
    Senator Coleman. Aye.
    The Clerk. Senator Crapo.
    Senator Crapo. Aye.
    The Clerk. Senator Grassley.
    [No response.]
    The Clerk. Senator Chambliss.
    [No response.]
    The Clerk. There are 11 ayes, sir.
    Senator Roberts. We will hold this vote open, as designated 
during the UC request, until 5 o'clock. I thank all members, 
and we will now proceed with the second round of questioning. 
It will be Senator Baucus--I am sorry. We will go by--I do not 
know whether or not we had by order of appearance, and I do not 
know who rates in terms of order of appearance, but I at least 
know that I should recognize the distinguished ranking member.
    Senator Harkin. Well, Mr. Chairman, I thank you very much. 
I covered most of the things I wanted to with our secretary-
designee. I am glad that we got the 11 here, and hopefully we 
can--if we have a session on the floor this afternoon, as I 
understand we may on the Senate floor, and we have a vote, 
voice or not, if we get the people on the committee to get 
their staffs to get them to vote on this even before 5, it is 
possible that we could actually get this through the Senate 
today, and then get the President to get you in there as soon 
as possible.
    Governor Johanns. Thank you, Senator.
    Senator Harkin. Hopefully, this will happen.
    Is only one other thing I just wanted to cover very briefly 
with you, Governor, and that is in terms of a capital 
investment in rural areas. I mentioned I am from a small town. 
We tend to think of ``agriculture,'' we think of our farms, our 
ranchers. Without our small towns and communities, they cannot 
exist. We have to have another economic structure out there in 
our small towns. That is why we worked hard to put in the 
broadband access into the Farm bill. There is money in there--I 
mentioned that earlier; I am not going to go over that again--
broadband access, the value-added parts of it, that type of 
thing.
    One of the things that has been woefully inadequate in 
rural America and small towns and communities is venture 
capital. Venture capital always goes to bigger places. Now, it 
came to my attention some time ago that there are some entities 
springing up in different places. I know a couple out of 
Chicago, and there may be others that I am not aware of, 
obviously, in which they are putting together venture capital 
funds basically to try to get into rural areas. Well, we put in 
the Farm bill a Rural Business Investment Program, RBIP, 
created in there to provide venture capital for small towns and 
communities. We provided mandatory funds--mandatory funds--for 
a rural business investment program to meet the need of venture 
capital and development of businesses in small towns.
    The interim rule that was developed has a number of 
problems which really hurt the effectiveness of the program. 
For example, the rule includes a variety of fees that could 
amount to over $1.6 million in expenses placed upon the rural 
business investment company. Now, again, the Farm bill provided 
mandatory funding so that we would not have to have these type 
of fees for small towns and communities. If you are sending up 
what we call an RBIC, a Rural--and this is modeled after the 
small business investment corporations, which I am sure you are 
aware of in Nebraska also.
    Governor Johanns. Yes.
    Senator Harkin. This is different. We put the mandatory 
funding in there for that purpose. There are some other parts 
of the rule that have other weaknesses. I guess my--the only 
thing is, I hope you will look at that.
    Governor Johanns. I'll take a look.
    Senator Harkin. Take a look at that interim rule. See how 
we can work together to better revise it to get the mandatory 
money out to get this rural business investment thing going.
    Oh.
    Senator Roberts. Are you OK there?
    Senator Harkin. I am sorry. I just got a note here to say 
that Hilda Legg, who is the Rural Utilities Service 
administrator, just announced her retirement. I am sorry to 
hear that. She was a great appointment, she did a great job 
facing great difficulties. She worked great with this 
committee. I am just sorry that you will only have her 
assistance for a few days after your confirmation. I hope that 
you will talk with Ms. Legg about what is needed regarding the 
rural utilities services before she leaves. She has a great 
deal of knowledge and expertise in this area, and I am 
concerned, as we continue ahead on this, that you will really 
ask for her input before she leaves. I was just given that 
note. I hope this is correct--I do not want to announce--I am 
not announcing something, I was just saddened and surprised to 
hear that she is leaving.
    Please talk to her before she leaves. She is very good.
    Governor Johanns. Thank you. I will, Senator.
    Senator Harkin. Thank you.
    Senator Roberts. The distinguished Senator from Montana is 
recognized.
    Senator Baucus. Governor, I am very happy, as all of us on 
the committee are, and a lot of people listening, that you are 
so aggressive in pushing U.S. exports, agriculture products 
overseas. As you well know, it is a huge effort on our behalf. 
It must be in some respects because for other countries, trade, 
on a comparative basis, is even more important than it is in 
the United States. There are other countries--and it is always 
interesting to me when I visit other countries and raise the 
question of trade and so forth, how much they know about the 
United States agriculture trade; how much they know about our 
country, because trade is their life blood even more than it is 
ours in most of these countries, frankly. That is because we 
are such a large country, somewhat self-sufficient in so many 
areas. Many countries are not.
    That means that when it comes to working out agreements 
with these countries, we have to work even harder, more 
creative than we otherwise think we might have to be.
    I might focus on one area of the world, and that is Cuba. 
As you well know, we export about $700 million of agriculture 
products to Cuba in the last several years. As you also know, 
the Congress passed legislation in 2000, which emphasized our 
congressional desire, signed by the President, to export 
agriculture products to Cuba.
    My State of Montana, we have exported $25 million worth in 
the last--actually, we signed an agreement for $10 million 
about a year ago, and $15 million just a short while ago. Most 
of the $15 million is already been executed. That is about $25 
million to Cuba.
    I am asking you to continue to, according to the spirit of 
that legislation, to aggressively help American companies--
farmers--export their agriculture products to Cuba. There are 
some within the Administration who would like to go in the 
other direction.
    I am asking you, will you commit to--I am not asking you to 
lift the embargo----
    Governor Johanns. Right.
    Senator Baucus. The travel ban. I am just asking you to 
restrict nibbling efforts in the Administration that will tend 
to restrict that trade to Cuba.
    I say that, in part, because the first time, we almost have 
a deficit in agriculture trade. We enjoyed a huge surplus, but 
that has been shrinking significantly, and this is one bright 
spot where we can export ag products to Cuba. Can you make that 
commitment?
    Governor Johanns. Senator, let me just again say what I 
said in your office yesterday. I will support the 
Administration's policies on Cuba, and, as you point out, we do 
export to Cuba.
    Senator Baucus. You know the legislation that was passed?
    Governor Johanns. Yes. I know----
    Senator Baucus. I urge you--frankly, I encourage you to 
read it.
    Governor Johanns. Yes.
    Senator Baucus. Because I did just not too long ago, maybe 
a couple of weeks ago. It is interesting how it is very clearly 
and affirmative U.S. policy on a cash basis, to ship 
agriculture products to Cuba.
    Governor Johanns. Yes. I will promise you I will read the 
legislation very, very carefully, and if confirmed by the U.S. 
Senate as Secretary of Agriculture, I will support the 
Administration's policies on Cuba. The President has spoken 
very forcefully in this area.
    Senator Baucus. I might say it is unclear what the 
Administration's policy precisely is.
    Governor Johanns. OK.
    Senator Baucus. There is a lot of wiggle room there. I do 
not know if the Administration--the President himself is 
personally focused on efforts by, say, OFAC, in the Treasury 
Department, to propose financing regulation changes which have 
the effect of choking off ag trade. There is potentially a lot 
of discretion there.
    I am asking you as Ag Secretary, to fight to keep that from 
being choked off with the letter of the law. You can have some 
discretion there. I am sure the President of the United States 
does not decide every single issue like this. He does not have 
time. He cannot. It is an impossibility. You have a lot of 
discretion.
    I am asking you, will you personally commit? Is it your 
personal view to restrict, to resist efforts to choke off.
    Governor Johanns. I will do everything I can within the 
Administration policy, and, Senator, that's just as direct as I 
possibly can answer.
    Senator Baucus. Well, I urge you to go as far as you 
possibly can, because it is very important. Some of us have 
been to Cuba recently. When you are in Cuba--I have to be 
honest--you wonder what planet you are on, given current U.S. 
policy with respect to Cuba. It is astoundingly off in some 
other world. I am not going to argue that. I am not going to 
argue that point today. I am just going to say we do have a 
law, and I would like to see the travel ban repealed, the 
embargo repealed, but that is not what we are discussing here 
today. We are only discussing the narrow confines of that 
statute, that here in 2000, which was passed and signed by the 
President.
    I am asking you to uphold to that statute as vigorously as 
you can.
    Governor Johanns. I will always uphold the law, as I 
indicated to you.
    Senator Baucus. Sorry. My time is expiring, so I have one 
quick other point I want to make to you, and that is the 
tremendous problems this country is going to be facing in the 
next several years with respect to the Farm bill, DOHA round, 
Brazil, a WTO case, for example, and we have huge problems 
facing us. Budget deficits. Federal fiscal budget deficits. 
There is a much larger now than when the last Farm bill was 
passed--the current Farm bill was passed. As you well know, it 
is in our interest as Americans to try to get this DOHA Round 
passed as quickly as we possibly can; in a way, of course, that 
is favorable to the United States; at least not unfavorable to 
the United States.
    In the meantime, the Farm bill might expire by 2006 or 
2007. I do not know if the DOHA Round is going to be completed 
by then. Then there is the Brazil sugar case, which is directed 
only at sugar in the United States, but also is to upset the 
United States' efforts in the Round.
    Could you just give us a very short sense of how you 
attempt to navigate that very difficult terrain?
    Governor Johanns. Well, you've laid out the issues. 
Everything is coming together, almost all at once. What the 
exact timing will be is a little bit up in the air.
    I can tell you, without any hesitation, that I will be 
personally involved in the DOHA Round. Of course, a lot has 
happened up to this point, but I see such a critical role for 
agriculture here that I've already indicated that I want to be 
there. I want to be at the table. I want to be advocating for 
agriculture and making sure that our voice is heard.
    I will also give you this assurance, Senator. I'll work 
with you and the members of this committee and Senate and House 
on their issues and concerns relative to the DOHA Round.
    Your other observation is correct: this probably will come 
together at about the time that the Senate and the House are 
talking about the reauthorization of the Farm bill. 
Potentially, it has a significant impact on that.
    My crystal ball is probably not any better than anyone 
else's , but certainly all of these things are heading toward a 
point here, and they could all have an impact. My goal with the 
DOHA negotiations, is to make sure that agriculture is front 
and center; that it not only has a place at the table, but that 
we're considered as those discussions proceed. Whatever input 
and advice you could give me on that will sincerely be 
welcomed.
    Senator Baucus. Well, I deeply appreciate that, because I 
know I can speak for all of us, we want to work with you, 
because this is an American issue. We are all together here. We 
are on the same team.
    Governor Johanns. Terribly important.
    Senator Baucus. It is going to take an awful lot of work 
and a lot of teamwork with the Congress and the Administration 
to get the best possible result. Final issue, I am not going to 
take any time on this country of origin labeling. This is very 
important to my people in Montana. I am very disturbed frankly 
that the Administration has resisted the legislation that we 
passed for mandatory country of origin labeling.
    I know there are riders on appropriations bills and so 
forth that have delayed. I certainly did not agree with them. 
My people in Montana certainly did not agree with them. It is 
like every day practically we see all these products--turn it 
over. Made in China. There is so much country of origin 
labeling on other products in this country. I believe in the 
interest of American consumers, as well as the American 
producers, it is the right thing to do. All these smokescreens 
that the packers and the grocery chains throw up are just that. 
They are just smokescreens. We can figure out a way to get this 
done in a way that is right. The right way is a--a fair way to 
have country of origin labeling so our consumers and our 
producers both know.
    Governor Johanns. OK.
    Senator Baucus. Thank you, Mr. Chairman. I apologize.
    The Chairman. No problem.
    Senator Roberts. No apologies needed, and I----
    Senator Baucus. I am just showing the new Senator from 
Colorado our new rule.
    Senator Roberts. The challenge in regards to Cuba does not 
lie with the Department of Agriculture so much as the 
Department of State, and, as the gentleman is aware, we have 
some legislative endeavors in the wings to hopefully achieve 
some progress in that regard. I look forward to working with 
him in that----
    Senator Baucus. Thank you.
    Senator Roberts. In that respect. The distinguished Senator 
from Arkansas.
    Senator Lincoln. Thank you, Mr. Chairman. Once again, I get 
to call you Mr. Chairman.
    You finally let me on the Ag committee. I am sorry.
    The Chairman. I tried a long time ago. I tried a long time 
ago.
    Senator Lincoln. I know it was a long time ago.
    The Chairman. It was like pushing a rope, but, by golly, we 
got you on.
    Senator Lincoln. Governor, I just have a few additional 
questions, particularly about the issue Senator Baucus brought 
up in terms of the trade to Cuba, which we authorized the sale 
of agricultural products through the Congress in 2000.
    I noticed you did say that you would support the 
Administration's policy, and I suppose our concern is if the 
Administration's policy were to change, particularly through 
the Department of the Treasury and others, the actions that 
would occur and what it might cost us in terms of the export 
market that we have been able to gain there.
    If the Administration does make those changes, and it 
results in reduced agricultural exports, I particularly would 
like to know what actions you in the Administration would take 
to compensate producers for the income losses that are 
associated with those lost sales.
    That is important for us to know. If, in fact, the 
Administration is going to take action that does have a 
negative effect on export markets and our producers, it is 
going to be important to know what the compensation would be.
    Governor Johanns. Senator, I quite honestly have thought 
about a lot of questions I might be asked at this hearing, and 
that was one that quite honestly I haven't given any thought or 
consideration to. That might be one where, if you don't mind, 
I'd like to have an opportunity to think through your question 
and accept that one as a question that I can respond to in 
writing. I'd just feel much more comfortable if that's okay 
with you.
    Senator Lincoln. Absolutely. I just think it is important 
for that point to be made, just as I mentioned one of Arkansas' 
corporate citizens has taken action because of closed export 
markets and what it has done. It is important for us to realize 
that for our producers, our jobs in this country, there is a 
real impact that happens when those decisions are made. It is 
important for us to understand that as a government and as an 
Administration, we have to be able to respond to that.
    The last thing I would like to bring up and I notice 
Chairman Larry Combest out there as well, he was wonderful to 
work with in a very bipartisan way, and in a regional way, and 
I want to compliment him on the great work that he has done; 
and I am glad to see him.
    One of the things that I would like to make sure we have is 
an assurance from you, as Secretary of Agriculture, that you 
will protect the very diverse support structure that is 
embodied in the current Farm bill. As many have mentioned, it 
is not as much partisan in the Ag committee as it is regional. 
We have worked very hard to make sure that all of the regions 
are respected. The crops that they grow, the way that they 
function, particularly in regard to foreign markets. It is 
important that that diversity and that understanding be 
maintained. I hope we have your support and your commitment to 
that diversity of that support structure.
    Governor Johanns. I advocated for the Farm bill as a 
Governor, as I've mentioned I was the lead Western Governor and 
lead Midwestern Governor. I feel very comfortable with the Farm 
bill that was passed.
    The one qualifier that I have to put in here, Senator, is 
there's a piece of this that's very important, that we're all 
going to have to focus on, and that's budget issues. I don't 
know what those issues are today. I have not gotten any inside 
information and didn't request any inside information. 
Somewhere out there I suspect we'll have additional discussions 
on what often times are the toughest pieces of our jobs. I've 
certainly been through it the last couple of years, and I'd 
share with you in the 20 years I've been in public service, I 
noticed I was a lot more popular when I had money than when I 
didn't.
    I guess what I'd offer to you is this: I do have comfort 
with the Farm bill, and worked hard from our Governors' 
standpoint to get a farm bill like this passed. I'll do 
everything I can to advocate for agriculture, and I'll also 
recognize that somewhere out there, there will be a budget. You 
would think less of me if I was in here not supporting the 
budget. I fully intend to support the budget.
    Senator Lincoln. Well, as long as the budget is fair, and 
one of the things we try to impress upon you is that you will 
actually be the one defending us and fighting on behalf of the 
things that we are trying to promote, which we have all talked 
about here today. I, like Senator Salazar, grew up in one of 
the poorest counties in the country. Whether it is rural 
development, whether it is conservation programs, as Senator 
Cochran mentioned, which are critical, whether it is again the 
fact that we all grow different crops, our economies of scale 
are different, our crops are different, because we live in 
different regions of the country, and in many instances, we are 
going to ask you to step into that battle on our behalf with 
the Administration and the budget folks to really say this is a 
critical part of what our country and our heritage is all 
about.
    I look forward to working with you----
    Governor Johanns. Thank you.
    Senator Lincoln. Those diversities and those differences 
are what make us strong in this country and particularly from 
an agricultural standpoint. Thank you.
    Thank you, Mr. Chairman.
    Governor Johanns. Senator, thank you.
    Senator Roberts. I thank the Senator for her comments. All 
Senators should know and staff representing the Senators should 
tell Senators that any written questions for the Governor need 
to be submitted to the committee by 3 p.m., as of tomorrow. The 
distinguished Senator from Nebraska is recognized.
    Senator Nelson. Thank you, Mr. Chairman. It looks like I 
might get the last question, but, with you as Chairman, I know 
I will not get the last word.
    Governor, I am encouraged by your comment about putting 
agricultural trade front and center, because so very often it 
has been an afterthought, a sidebar agreement, not part of the 
basis trade agreements that have been negotiated. I am very 
encouraged by that.
    As part of the fight against trade protectionism, you have 
heard so many comments about Japan and other Asian markets as 
well that are currently not admitting exports, particularly of 
beef, to their markets--closing out those markets. You have 
heard about Canada.
    The one market that is continuing to be a problem that will 
be a challenge is the European market. The trade barriers there 
seem to be on the basis of genetically modified organisms. Any 
particular reason to not to permit our markets to export into 
their markets.
    I hope that that will be another area for you to put front 
and center, because we need to be sure that we are able to 
trade or this imbalance of trade that is now extending to 
agriculture is only going to get worse. Exports have to be part 
of the trade agreements. All too often, the trade agreements 
appear to represent and resemble more import agreements than 
they are export agreements.
    I know that is high on your list of priorities, and I want 
you to know that we will continue to work with you every way 
that we can, and should it become important to have a hearing 
on this as it relates to some of these markets, I know that you 
would be available to come and testify as to what your 
experience is once you have had this job.
    Governor Johanns. You know I would be glad to, Senator, and 
I appreciate your comments. It's another area I bring something 
to the table. The Midwest Governors' Association asked me to go 
over and meet with European Union officials on these issues. 
There's (labeling, which, of course, is connected to this whole 
issue of biotechnology) so much more that needs to be done over 
there concerning labeling and it's good that you highlight 
that. It's on my mind. I'll do everything I can to push that 
agenda.
    Senator Nelson. Well, thank you, and congratulations in 
advance, and good luck.
    Governor Johanns. Thank you, Senator.
    Senator Nelson. Thank you.
    Governor Johanns. I appreciate it. I look forward to 
working with you.
    Senator Nelson. Thank you.
    Senator Roberts. We thank you, Senator. Before we adjourn, 
I would like to submit for the record a number of letters, all 
of which strongly endorse the nominee. These endorsements 
include the Western Governors' Association, the Renewable Fuels 
Association--they meet every Wednesday morning and have a glass 
of ethanol with Chuck Grassley--the United Egg Producers, the 
National Corn Growers, the Governor of Hawaii, the National 
Milk Producers, the International Dairy Foods Association, and 
a coalition of major sporting and conservation groups, and 
pending the game next year Kansas State University.
    [The letters can be found in the appendix on page 112.]
    Senator Roberts. Governor, you have been very patient, and 
we have one more question or comment by the distinguished 
Ranking Member.
    Senator Harkin. Thank you, Mr. Chairman. Just a little 
housekeeping matter. I thank you for moving the nominee rapidly 
and getting the quorum here so we can hopefully get this done 
today. It has come to my attention that there were some 
Senators who were unable to be here today or who had follow-up 
written questions.
    Despite the committee's action today and possibly the 
Senate action today in confirming you, Governor, would you 
again commit to answering any written questions that would come 
from any member of this committee regarding your nomination, 
despite the fact that you may already be Secretary of 
Agriculture?
    Governor Johanns. Oh, absolutely, Senator. Of course, and 
I'll do it diligently.
    Senator Harkin. All right. I appreciate that. Thank you.
    Governor Johanns. You bet.
    Senator Roberts. Governor, you have been very patient. You 
have given an excellent statement. You have the support of this 
committee. Thank you very much for coming, and godspeed.
    Governor Johanns. Thank you. It's been a honor.
    [The prepared statement of Governor Johanns can be found in 
the appendix on page 62.]
    Senator Roberts. The hearing is adjourned.
    [Whereupon, at 1:04 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            January 6, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7781.001

[GRAPHIC] [TIFF OMITTED] T7781.003

[GRAPHIC] [TIFF OMITTED] T7781.004

[GRAPHIC] [TIFF OMITTED] T7781.002

[GRAPHIC] [TIFF OMITTED] T7781.005

[GRAPHIC] [TIFF OMITTED] T7781.006

[GRAPHIC] [TIFF OMITTED] T7781.007

[GRAPHIC] [TIFF OMITTED] T7781.008

[GRAPHIC] [TIFF OMITTED] T7781.009

[GRAPHIC] [TIFF OMITTED] T7781.010

[GRAPHIC] [TIFF OMITTED] T7781.011

[GRAPHIC] [TIFF OMITTED] T7781.012

[GRAPHIC] [TIFF OMITTED] T7781.013

[GRAPHIC] [TIFF OMITTED] T7781.014

[GRAPHIC] [TIFF OMITTED] T7781.015

[GRAPHIC] [TIFF OMITTED] T7781.016

[GRAPHIC] [TIFF OMITTED] T7781.017

[GRAPHIC] [TIFF OMITTED] T7781.018

[GRAPHIC] [TIFF OMITTED] T7781.019

[GRAPHIC] [TIFF OMITTED] T7781.020

[GRAPHIC] [TIFF OMITTED] T7781.021

[GRAPHIC] [TIFF OMITTED] T7781.022

[GRAPHIC] [TIFF OMITTED] T7781.023

[GRAPHIC] [TIFF OMITTED] T7781.024

[GRAPHIC] [TIFF OMITTED] T7781.025

[GRAPHIC] [TIFF OMITTED] T7781.026

[GRAPHIC] [TIFF OMITTED] T7781.027

[GRAPHIC] [TIFF OMITTED] T7781.028

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 6, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7781.029

[GRAPHIC] [TIFF OMITTED] T7781.030

[GRAPHIC] [TIFF OMITTED] T7781.031

[GRAPHIC] [TIFF OMITTED] T7781.032

[GRAPHIC] [TIFF OMITTED] T7781.033

[GRAPHIC] [TIFF OMITTED] T7781.034

[GRAPHIC] [TIFF OMITTED] T7781.035

[GRAPHIC] [TIFF OMITTED] T7781.036

[GRAPHIC] [TIFF OMITTED] T7781.037

[GRAPHIC] [TIFF OMITTED] T7781.038

[GRAPHIC] [TIFF OMITTED] T7781.039

[GRAPHIC] [TIFF OMITTED] T7781.040

[GRAPHIC] [TIFF OMITTED] T7781.041

[GRAPHIC] [TIFF OMITTED] T7781.042

[GRAPHIC] [TIFF OMITTED] T7781.043

[GRAPHIC] [TIFF OMITTED] T7781.044

[GRAPHIC] [TIFF OMITTED] T7781.045

[GRAPHIC] [TIFF OMITTED] T7781.046

[GRAPHIC] [TIFF OMITTED] T7781.047

[GRAPHIC] [TIFF OMITTED] T7781.048

[GRAPHIC] [TIFF OMITTED] T7781.049

[GRAPHIC] [TIFF OMITTED] T7781.050

[GRAPHIC] [TIFF OMITTED] T7781.051

[GRAPHIC] [TIFF OMITTED] T7781.052

[GRAPHIC] [TIFF OMITTED] T7781.163

[GRAPHIC] [TIFF OMITTED] T7781.056

[GRAPHIC] [TIFF OMITTED] T7781.057

[GRAPHIC] [TIFF OMITTED] T7781.167

[GRAPHIC] [TIFF OMITTED] T7781.071

[GRAPHIC] [TIFF OMITTED] T7781.168

[GRAPHIC] [TIFF OMITTED] T7781.166

[GRAPHIC] [TIFF OMITTED] T7781.053

[GRAPHIC] [TIFF OMITTED] T7781.054

[GRAPHIC] [TIFF OMITTED] T7781.055

[GRAPHIC] [TIFF OMITTED] T7781.164

[GRAPHIC] [TIFF OMITTED] T7781.165

[GRAPHIC] [TIFF OMITTED] T7781.058

[GRAPHIC] [TIFF OMITTED] T7781.059

[GRAPHIC] [TIFF OMITTED] T7781.060

[GRAPHIC] [TIFF OMITTED] T7781.061

[GRAPHIC] [TIFF OMITTED] T7781.062

[GRAPHIC] [TIFF OMITTED] T7781.063

[GRAPHIC] [TIFF OMITTED] T7781.064

[GRAPHIC] [TIFF OMITTED] T7781.065

[GRAPHIC] [TIFF OMITTED] T7781.066

[GRAPHIC] [TIFF OMITTED] T7781.067

[GRAPHIC] [TIFF OMITTED] T7781.068

[GRAPHIC] [TIFF OMITTED] T7781.069

[GRAPHIC] [TIFF OMITTED] T7781.070

[GRAPHIC] [TIFF OMITTED] T7781.072

[GRAPHIC] [TIFF OMITTED] T7781.073

[GRAPHIC] [TIFF OMITTED] T7781.074

[GRAPHIC] [TIFF OMITTED] T7781.075

      
=======================================================================


                         QUESTIONS AND ANSWERS

                            January 6, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7781.076

[GRAPHIC] [TIFF OMITTED] T7781.077

[GRAPHIC] [TIFF OMITTED] T7781.078

[GRAPHIC] [TIFF OMITTED] T7781.079

[GRAPHIC] [TIFF OMITTED] T7781.080

[GRAPHIC] [TIFF OMITTED] T7781.081

[GRAPHIC] [TIFF OMITTED] T7781.082

[GRAPHIC] [TIFF OMITTED] T7781.083

[GRAPHIC] [TIFF OMITTED] T7781.084

[GRAPHIC] [TIFF OMITTED] T7781.085

[GRAPHIC] [TIFF OMITTED] T7781.086

[GRAPHIC] [TIFF OMITTED] T7781.087

[GRAPHIC] [TIFF OMITTED] T7781.088

[GRAPHIC] [TIFF OMITTED] T7781.089

[GRAPHIC] [TIFF OMITTED] T7781.090

[GRAPHIC] [TIFF OMITTED] T7781.091

[GRAPHIC] [TIFF OMITTED] T7781.092

[GRAPHIC] [TIFF OMITTED] T7781.093

[GRAPHIC] [TIFF OMITTED] T7781.094

[GRAPHIC] [TIFF OMITTED] T7781.095

[GRAPHIC] [TIFF OMITTED] T7781.096

[GRAPHIC] [TIFF OMITTED] T7781.097

[GRAPHIC] [TIFF OMITTED] T7781.098

[GRAPHIC] [TIFF OMITTED] T7781.099

[GRAPHIC] [TIFF OMITTED] T7781.100

[GRAPHIC] [TIFF OMITTED] T7781.101

[GRAPHIC] [TIFF OMITTED] T7781.154

[GRAPHIC] [TIFF OMITTED] T7781.155

[GRAPHIC] [TIFF OMITTED] T7781.156

[GRAPHIC] [TIFF OMITTED] T7781.169

[GRAPHIC] [TIFF OMITTED] T7781.170

[GRAPHIC] [TIFF OMITTED] T7781.171

[GRAPHIC] [TIFF OMITTED] T7781.172

[GRAPHIC] [TIFF OMITTED] T7781.173

[GRAPHIC] [TIFF OMITTED] T7781.144

[GRAPHIC] [TIFF OMITTED] T7781.145

[GRAPHIC] [TIFF OMITTED] T7781.146

[GRAPHIC] [TIFF OMITTED] T7781.147

[GRAPHIC] [TIFF OMITTED] T7781.135

[GRAPHIC] [TIFF OMITTED] T7781.136

[GRAPHIC] [TIFF OMITTED] T7781.137

[GRAPHIC] [TIFF OMITTED] T7781.138

[GRAPHIC] [TIFF OMITTED] T7781.139

[GRAPHIC] [TIFF OMITTED] T7781.140

[GRAPHIC] [TIFF OMITTED] T7781.141

[GRAPHIC] [TIFF OMITTED] T7781.142

[GRAPHIC] [TIFF OMITTED] T7781.143

[GRAPHIC] [TIFF OMITTED] T7781.102

[GRAPHIC] [TIFF OMITTED] T7781.103

[GRAPHIC] [TIFF OMITTED] T7781.104

[GRAPHIC] [TIFF OMITTED] T7781.105

[GRAPHIC] [TIFF OMITTED] T7781.106

[GRAPHIC] [TIFF OMITTED] T7781.107

[GRAPHIC] [TIFF OMITTED] T7781.108

[GRAPHIC] [TIFF OMITTED] T7781.148

[GRAPHIC] [TIFF OMITTED] T7781.149

[GRAPHIC] [TIFF OMITTED] T7781.150

[GRAPHIC] [TIFF OMITTED] T7781.151

[GRAPHIC] [TIFF OMITTED] T7781.109

[GRAPHIC] [TIFF OMITTED] T7781.110

[GRAPHIC] [TIFF OMITTED] T7781.116

[GRAPHIC] [TIFF OMITTED] T7781.117

[GRAPHIC] [TIFF OMITTED] T7781.118

[GRAPHIC] [TIFF OMITTED] T7781.119

[GRAPHIC] [TIFF OMITTED] T7781.120

[GRAPHIC] [TIFF OMITTED] T7781.121

[GRAPHIC] [TIFF OMITTED] T7781.157

[GRAPHIC] [TIFF OMITTED] T7781.158

[GRAPHIC] [TIFF OMITTED] T7781.159

[GRAPHIC] [TIFF OMITTED] T7781.160

[GRAPHIC] [TIFF OMITTED] T7781.161

[GRAPHIC] [TIFF OMITTED] T7781.162

[GRAPHIC] [TIFF OMITTED] T7781.152

[GRAPHIC] [TIFF OMITTED] T7781.153

[GRAPHIC] [TIFF OMITTED] T7781.127

[GRAPHIC] [TIFF OMITTED] T7781.128

[GRAPHIC] [TIFF OMITTED] T7781.129

[GRAPHIC] [TIFF OMITTED] T7781.130

[GRAPHIC] [TIFF OMITTED] T7781.131

[GRAPHIC] [TIFF OMITTED] T7781.132

[GRAPHIC] [TIFF OMITTED] T7781.133

[GRAPHIC] [TIFF OMITTED] T7781.134

[GRAPHIC] [TIFF OMITTED] T7781.122

[GRAPHIC] [TIFF OMITTED] T7781.123

[GRAPHIC] [TIFF OMITTED] T7781.124

[GRAPHIC] [TIFF OMITTED] T7781.125

[GRAPHIC] [TIFF OMITTED] T7781.126

[GRAPHIC] [TIFF OMITTED] T7781.111

[GRAPHIC] [TIFF OMITTED] T7781.112

[GRAPHIC] [TIFF OMITTED] T7781.113

[GRAPHIC] [TIFF OMITTED] T7781.114

[GRAPHIC] [TIFF OMITTED] T7781.115

                                 <all>

</pre></body></html>
